<html>
<title> - REBUILDING AFTER HURRICANE SANDY</title>
<body><pre>[Senate Hearing 113-681]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 113-681
 
                    REBUILDING AFTER HURRICANE SANDY

=======================================================================

                                HEARING

                                BEFORE A

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    MARCH 1, 2013--STATEN ISLAND, NY

                               __________

         Printed for the use of the Committee on Appropriations
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
         


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                              
                               __________
                               
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
80-071                     WASHINGTON : 2015                                                      
_________________________________________________________________________________________                               
 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  
                              
                               
                               
                            
                      COMMITTEE ON APPROPRIATIONS

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN M. COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
FRANK R. LAUTENBERG, New Jersey      MARK KIRK, Illinois
MARK L. PRYOR, Arkansas              DANIEL COATS, Indiana
JON TESTER, Montana                  ROY BLUNT, Missouri
TOM UDALL, New Mexico                JERRY MORAN, Kansas
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas

                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                 
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
PATRICK J. LEAHY, Vermont            DANIEL COATS, Indiana
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                           Professional Staff

                            Stephanie Gupta
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                        Carol Cribbs (Minority)

                         Administrative Support

                            Colin MacDermott
                      Courtney Stevens (Minority)

                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
FEMA Reforms.....................................................     2
Prepared Statement of Senator Mary L. Landrieu...................     4
Sequester........................................................     6
10-Year Anniversary of the Department of Homeland Security.......     6
Statement of Senator Kirsten E. Gillibrand.......................     6
    Prepared Statement of........................................     8
Flood Insurance..................................................    10
Statement of Hon. Craig Fugate, Administrator, Federal Emergency 
  Management Agency..............................................    11
FEMA's Early Response............................................    11
Climate Change...................................................    12
Prepared Statement of Hon. Craig Fugate..........................    13
Immediate Response Operations....................................    13
Disaster Relief Fund and Disaster Relief Appropriations Act of 
  2013...........................................................    14
Recovery--Working as a Team......................................    14
Individual Assistance............................................    14
Public Assistance................................................    15
Hazard Mitigation Grant Program and National Flood Insurance 
  Program........................................................    15
Housing..........................................................    16
National Disaster Recovery Framework.............................    17
Procurement......................................................    18
Statement of Laurel Blatchford, Executive Director, Hurricane 
  Sandy Rebuilding Task Force....................................    19
Hurricane Sandy Task Force.......................................    19
Prepared Statement of Laurel Blatchford..........................    21
The Impact of and Damage Caused by Superstorm Sandy..............    21
Ongoing Response and Recovery Efforts and Lessons Learned From 
  Hurricane Katrina..............................................    21
The Role of the Hurricane Sandy Rebuilding Task Force............    22
The Task Force and Supplemental Funding..........................    23
Sandy Recovery Improvement Act...................................    23
Regulatory Flexibility...........................................    24
Insurance Shortcomings...........................................    25
Flexible Community Development Block Grant.......................    26
Rebuilding Smarter...............................................    27
Oversight/Transparency...........................................    28
Sequestration's Effect on Disaster Rebuilding....................    28
Future Disaster Funding..........................................    28
Cost Savings.....................................................    29
Report to the President..........................................    30
Statement of Hon. Joseph H. Mancini, Mayor, Township of Long 
  Beach, New Jersey..............................................    31
    Prepared Statement of........................................    32
Statement of Hon. Scott J. Mandel, City Council President, Long 
  Beach, New York................................................    34
Damaged Facilities...............................................    34
Prepared Statement of Hon. Scott J. Mandel.......................    35
Recommendations..................................................    36
Damage and Costs.................................................    36
Rebuilding Approach..............................................    37
Currently........................................................    37
Federal Fund Appropriations......................................    37
Statement of Brad Gair, Director of Housing Recovery Operations, 
  New York City, New York........................................    37
Expedited Repairs Program........................................    38
Community Development Block Grant Program........................    39
Prepared Statement of Brad Gair..................................    40
General Housing Recovery Operations Activities...................    40
Federal Program Issues...........................................    41
Lapse in Funding.................................................    43
Barrier Islands..................................................    44
Infrastructure Deficit...........................................    46
SBA Response.....................................................    47
Engineered Levees................................................    49
Additional Committee Questions...................................    50
Questions Submitted to the Federal Emergency Management Agency...    50
Questions Submitted by Senator Mary L. Landrieu..................    50
Questions Submitted to the Hurricane Sandy Rebuilding Task Force.    51
Questions Submitted by Senator Mary L. Landrieu..................    51
Questions Submitted to the City Council of Long Beach, New York..    52
Questions Submitted by Senator Mary L. Landrieu..................    52


                    REBUILDING AFTER HURRICANE SANDY

                              ----------                              


                         FRIDAY, MARCH 1, 2013

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                 Staten Island, NY.
    The subcommittee met at 10:32 a.m., at 212 Coast Guard 
Drive, in Staten Island, New York, Hon. Mary L. Landrieu 
(chairman) presiding.
    Present: Senators Landrieu and Gillibrand.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning, everyone. Let me call this 
field hearing to order, and I thank all those who are 
participating today.
    I want to begin by thanking the U.S. Coast Guard Sector New 
York for being such wonderful hosts for us today in this 
facility that served as a tactical command in the response to 
Hurricane Sandy. And I thank the Coast Guard leadership, 
Captain Gordon Loebl and his team that have done a wonderful 
job today. Thank you for being such wonderful hosts to us 
today.
    I also want to say how pleased I am for my colleague, 
Senator Gillibrand, who we will hear testimony from today, and 
to thank her for her extraordinary leadership not only on 
behalf of her citizens that she represents, but the whole 
country, when it comes to disaster response for Hurricane Sandy 
and for better response for all other disasters as well.
    I was with Senator Schumer and Senator Gillibrand earlier 
this morning. Senator Schumer is not going to be able to be 
with us today, but I think he was helping to open Fairway 
grocery in Red Hook in Brooklyn, and I want to thank Senator 
Schumer for his leadership as well.
    Let me begin with an opening statement, and then we will go 
right into Senator Gillibrand's questions and testimony.
    We meet here today to receive testimony and evaluate the 
massive rebuilding effort that is now underway in the aftermath 
of Hurricane Sandy to restore homes, communities, and the 
economy of this region. Hurricane Sandy struck on October 29, 
2012, as the largest sized storm system in the history of the 
United States.
    Two of our Nation's most populous States--New York and New 
Jersey--were especially hard hit. The storm claimed the lives 
of more than 120 Americans and destroyed 340,000 homes and 
200,000 businesses. The storm left more than 8.5 million 
families without power, heat, or running water for weeks--in 
some communities, much longer.
    The National Hurricane Center estimates that Hurricane 
Sandy will be, when all costs and estimates are in, the second 
costliest in our Nation's history, only behind Hurricane 
Katrina, which devastated New Orleans, the region, and the gulf 
coast almost 8 years ago.
    The scale of this disaster has created significant housing 
and transportation challenges, and the successful rebuilding 
will require a sustained and coordinated effort at the Federal, 
State, and local government level, along with significant help 
from the private sector and voluntary organizations.
    Unfortunately, thousands and thousands of my constituents 
in Louisiana know exactly what our friends here along the east 
coast are going through in their efforts to recover from this 
devastating storm. Substantial Federal support was delivered to 
the gulf coast after Hurricanes Katrina and Rita in 2005, but 
navigating the Federal bureaucracy to access that help was, at 
times, maddening.
    Homeowners had to wait for years before repair and 
elevation grants became available. Insurance companies refused 
to pay thousands of legitimate claims. Business owners were 
denied emergency loans by the Small Business Administration 
(SBA). Local officials were forced to painstakingly document 
every iota of damage and negotiate with frequently rotating, 
poorly trained staff that lacked proper experience in damage 
assessment.
    Work was delayed by lengthy and duplicative environmental 
reviews. Federal agencies argued with one another for years 
over the responsibility for rebuilding public housing, removing 
waterway debris, and filling the void in mental health service 
delivery systems, as families waited, as neighborhoods 
atrophied, and as hope dissipated.
    As a result of these hard lessons from Hurricanes Katrina 
and Rita, I worked closely with the delegation members from New 
York and New Jersey, including this extraordinary Senator, 
Senator Gillibrand, Senator Schumer, Senator Lautenberg, 
Senator Menendez, Congressman King, Congresswoman Lowey, and 
Congresswoman Slaughter, in particular, to include many of the 
reforms in the $50.5 billion Hurricane Sandy relief bill that 
passed the Congress in January.


                              fema reforms


    For example, the Federal Emergency Management Agency (FEMA) 
can provide debris removal and infrastructure repair grants in 
advance now, on a fixed, reasonable estimate, instead of 
forcing communities to carry out the work at their own expense 
and submit an exhaustive volume of paperwork in order just to 
seek Federal reimbursement.
    Projects can be consolidated, which was not available 
before, to ensure that schools, police stations, and fire 
stations are strategically rebuilt where they are needed.
    In other words, this recovery should be about building the 
future, not rebuilding the past.
    This act helps us to have a smarter recovery. The act also 
established a dispute resolution process, which we used very 
regularly during Hurricanes Katrina and Rita to resolve 
disputes between the local, State, and Federal Government about 
how much a project costs. There was no end to that debate, and, 
of course, it lengthened considerably the time of recovery. We 
hope we have solved that problem.
    One other example of the many improvements in the act is 
the requirement for the President to establish a unified and 
expedited environmental review process, which should 
substantially expedite the rebuilding of neighborhoods and 
public infrastructure while respecting the environment.
    I believe these reforms will free FEMA to become a smarter, 
more efficient agency that can act quickly to cut through the 
unnecessary red tape while ensuring the appropriate stewardship 
of taxpayer funds.
    I look forward to learning how FEMA will be implementing 
these new authorities and utilizing them for the benefit of the 
people here on the east coast that need our best efforts right 
now.
    Another of the most important tools included in the 
Hurricane Sandy relief is the $16 billion for flexible 
community development block grants (CDBGs). I am particularly 
interested in learning how affected communities are planning to 
use these funds to support their recovery.
    There are ample examples of planning for safer, stronger 
and smarter disaster communities since Hurricane Katrina, 
through an initiative--I am going to give you just a few 
examples--called Louisiana Speaks, established in the aftermath 
of our storms by Governor Blanco, long-term community planning 
to build better levees, restore barrier islands and wetlands, 
design sustainable neighborhoods, enhance local economies, and 
modernize transportation options were initiated.
    In addition, Harvard stepped up through their Kennedy 
School of Government and did a first-of-its-kind study on one 
of the dozens of neighborhoods that were destroyed in the New 
Orleans region named Broadmoor. It happens to be my 
neighborhood; that is not why they chose it. But they have done 
some wonderful tracking in efficiency of methods that were 
deployed to rebuild that neighborhood. And those lessons are 
readily available for communities here in the Northeast 
corridor.
    This information and study is now available to serve as a 
guide to disaster-affected communities. I hope the leaders here 
will tap into that and other resources that are available.
    And finally, as the record will reflect, President Obama 
established the Hurricane Sandy Rebuilding Task Force on 
December 7, 2013, and designated Shaun Donovan, Secretary of 
the Department of Housing and Development, to chair it, 
consistent with the principles of the new interagency recovery 
framework that was also issued by this administration to try to 
get this right.
    Secretary Donovan, as you all know, is a native New Yorker 
with extensive housing and community development experience 
working with both the public and private sector.
    I cannot think of a more capable, more experienced, or more 
passionate leader to spearhead the Federal Government's efforts 
here in this region.
    The President has directed his task force to convene 
Federal agencies with a role in recovery to eliminate stovepipe 
operations. The task force is busily at work developing a 
strategy. We will hear about that strategy today.
    And finally, I think it is important to take a moment this 
morning to reflect that the Department of Homeland Security was 
officially established on this day 10 years ago in the 
aftermath of a horrific and unprecedented attack on the World 
Trade Center here in New York.
    Over the last decade, this Department has been organized, 
stood up, restructured on several occasions, subject to 
multiple new laws, under tremendous pressure, and has 
experienced a steady increase in funding until 2010 where this 
funding has been leveled off due to the gridlock in Washington. 
Yet, under the able leadership of Janet Napolitano, the 
Secretary, the Department has really been stretched lately to 
meet the ever-evolving threats and challenges, both manmade and 
natural disasters. That work continues. That is what our work 
is about today.
    As part of this new Department, FEMA has experienced 
significant change in the last 8 years after a shameful 
response to Hurricane Katrina with a lot of hard work, 
particularly by Craig Fugate, who is with us this morning. FEMA 
has been reconstituted, professionalized. And the Congress, 
thanks to Kirsten Gillibrand and others, has provided 
substantial resources to restore it to a higher level of 
competency and performance, doubling its workforce, 
dramatically augmenting its capabilities.
    However, we know there are still gaps. We know there are 
still challenges. We know that communities are having 
difficulty as they recover from this catastrophic event. So 
that is what this hearing is about, to hear what is working, to 
hear what is not working, and to continue to improve.


                           prepared statement


    With that, I would like to introduce our first witness. We 
will hear from Senator Gillibrand who has fought tirelessly and 
effectively on behalf not only of the constituents she 
represents but the entire region to jumpstart this recovery.
    And on our next panel, we will hear from two Federal 
agencies leading the recovery process. And on the final, most 
important panel, we will hear from local officials who are on 
the ground trying to make sense of the damage they see with 
their eyes, the heartbreak they feel with their hearts in 
trying to help their communities recover and get back to 
normal.
    So, Senator Gillibrand, we welcome your testimony this 
morning, and thank you for being such a smart and compassionate 
leader for this region.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    We meet today to hear testimony and evaluate the massive rebuilding 
effort that will be required in the aftermath of Hurricane Sandy, and a 
subsequent nor'easter that struck the region. Hurricane Sandy struck on 
October 29th as the largest sized storm system in United States 
history. Two of the Nation's most populous States--New York and New 
Jersey--were especially hard hit. The storm claimed the lives of more 
than 120 Americans, destroying over 340,000 homes and 200,000 
businesses. This left more than 8.5 million families without power, 
heat, or running water. The National Hurricane Center estimates that 
Hurricane Sandy will be the second costliest in our Nation's history 
behind Hurricane Katrina. The scale of this disaster has created 
significant housing and transportation challenges, and successful 
rebuilding will require sustained effort at the Federal, State and 
local level, from government, private businesses, and voluntary 
organizations.
    Unfortunately, my home State of Louisiana knows exactly what the 
States trying to recover from Sandy are facing. When Hurricane Katrina 
struck in August of 2005 it laid waste to 90,000 square miles, killing 
more than 1,800 people. Federal support was critical, but navigating 
the Federal bureaucracy was an exercise in frustration. Homeowners had 
to wait over a year before repair and elevation grants became 
available, insurance companies refused to pay thousands of legitimate 
claims, businesses owners were denied emergency loans by the Small 
Business Administration, local officials were forced to painstakingly 
document every iota of damage, and negotiate with frequently rotating 
poorly trained bureaucrats who lack construction experience in order to 
get funding for school, hospital and road repairs. Work was delayed by 
lengthy environmental reviews. And Federal agencies argued with one 
another for years over who was responsible for rebuilding public 
housing, removing waterway debris, and filling the void in mental 
health service delivery.
    As a result of the lessons learned from the Hurricane Katrina 
experience, I worked to include Stafford Act reforms in the Hurricane 
Sandy relief bill that passed the Congress in January. It was a tough 
battle to secure the needed extra funding for the Federal agencies most 
engaged in supporting the recovery such as the Federal Emergency 
Management Agency (FEMA), the Department of Housing and Urban 
Development (HUD), and the Corps--but we finally educated enough 
Congressmen on the criticality of the funding to get the $50.5 billion 
supplemental appropriations act passed and signed into law. Also 
included in the supplemental legislation is the Sandy Recovery 
Improvement Act which makes significant changes to the way FEMA can 
deliver disaster assistance. For example, FEMA can provide debris 
removal and infrastructure repair grants based on a reasonable fixed 
estimate instead of waiting for months to jump through unnecessary 
bureaucratic hoops. Projects can also be consolidated to ensure 
schools, police stations, and fire stations are strategically rebuilt 
where they are needed. The act also established a dispute resolution 
process which we used during Hurricanes Katrina and Rita to resolve 
disputes over project eligibility cost between FEMA and the affected 
communities. One other example of the many improvements in the act is 
the requirement for the President to establish a unified and expedited 
environmental review process. These new authorities are drawn from 
legislation that I worked on with Senator Cochran from Mississippi. I 
believe they will free FEMA from an antiquated process and cut 
unnecessary red tape, and I look forward to hearing how FEMA will be 
implementing these new authorities.
    We do have successful examples of planning for a safer, stronger 
and smarter future. Through an initiative called Louisiana Speaks, 
long-term community planning to build better levees, restore barrier 
islands and wetlands, invest in sustainable neighborhoods, diversify 
the economy, provide a job attracting education system, and modernize 
transportation options was completed. The effort was designed to focus 
on rebuilding with the whole region in mind and the plan was developed 
as a guide for years to come. In addition, Harvard's Kennedy School of 
Government did a case study on the Broadmoor neighborhood which 
demonstrated that citizens pulling together a dynamic plan for their 
own neighborhood is often critical for survival.
    While these success stories are real, the time it took to implement 
recovery and rebuilding plans was a challenge--in fact work is still 
on-going. That is why I incorporated lessons learned into the Post-
Katrina Emergency Management Reform Act. Through this legislation we 
established recovery offices to expedite progress in States hit hard by 
Katrina. Further, I fought to ensure adequate resources were included 
in subsequent appropriations acts to develop and implement the National 
Disaster Recovery Framework which led to improving the recovery 
planning process at all levels of government. The framework focuses on 
how best to restore, redevelop and revitalize the health, social, 
economic, natural and environmental fabric of the community and build a 
more resilient Nation. All levels of government must participate, and 
plans are made prior to disaster striking to quicken the pace of 
rebuilding. The recovery framework was fully deployed after Hurricane 
Isaac hit Louisiana in August 2012. It has been activated for Hurricane 
Sandy as well, and I look forward to hearing about how it is going from 
the witnesses. We still have work to do on the recovery planning front. 
The National Preparedness Report found that States are less than 
halfway to achieving their recovery-focused core capabilities.
    The President established the Hurricane Sandy Rebuilding Task Force 
on December 7, 2012, and designated Secretary Donovan of the Department 
of Housing and Urban Development to chair it consistent with the 
principles of the recovery framework. The task force is directed to 
convene Federal agencies with a role in the recovery to reduce 
obstacles and promote an efficient recovery. By early August this task 
force is required to develop a strategy that includes specific 
outcomes, goals, and actions, and a process for monitoring progress. I 
look forward to hearing more about the status of that effort today.
                               sequester
    Holding this hearing today is significant for a couple of reasons. 
First, a dire cost-cutting measure, known as sequestration, takes place 
for the Federal Government. I am disappointed that we could not reach 
agreement on a thoughtful way forward to reduce the deficit. A 
disproportionate share of our Nation's debt and deficit reduction has 
come from spending cuts as opposed to increased revenues. The reality 
is that our deficit reduction so far has been completely lopsided--72 
percent has come from spending cuts and only 28 percent has come from 
new revenues. We have already cut $1.5 trillion from discretionary 
spending over the next 10 years, and before this cut, revenues into the 
Federal Government as a percentage of the GDP were at the lowest level 
since before the Eisenhower administration--15.1 percent. I am very 
concerned about the impact sequestration will have on the Nation and in 
particular the Hurricane Sandy rebuilding effort. Chairwoman Mikulski 
from the State of Maryland is actively leading the Senate 
Appropriations Committee to be a part of the solution to our Nation's 
fiscal situation and I look forward to continuing to work with her and 
others.
       10-year anniversary of the department of homeland security
    Second, the Department of Homeland Security was officially 
established on this day 10 years ago. The creation of DHS brought 
together 22 Federal agencies after the September 11, 2001, terrorist 
attacks in an effort to better defend against our threats. Over the 
last decade, the Department has been reorganized, subjected to new 
laws, and has experienced a steady decrease in overall funding since 
fiscal year 2010. Under the leadership of Secretary Napolitano, the 
Department has been stretched to meet ever evolving threats in a 
strained economy and we have kept terrorists at bay and responded well 
to natural disasters. The work does not stop.
    As a part of the Department, the Federal Emergency Management 
Agency has experienced significant change, too. After a failed response 
during Hurricane Katrina, FEMA has been reconstituted, 
professionalized, and Congress has provided the necessary resources to 
have a competent Agency, including doubling the size of its workforce 
since 2005.
    With that I would like to introduce our witnesses. First, we will 
hear from Senator Gillibrand who has fought tirelessly to secure 
resources needed by Hurricane Sandy-affected communities. On the next 
panel, we will hear from the two Federal agencies leading the recovery 
process. On the final panel, we will hear from local officials whose 
communities are heavily engaged in recovery efforts. State officials 
are obviously critical to the recovery effort but due to the heavy 
workload and time pressures representatives were unable to make it on 
short notice.
    Senator Gillibrand we welcome your testimony.
    [Gillibrand testimony]
    Thank you Senator Gillibrand. Our next panel will speak to the 
Federal role in Hurricane Sandy recovery. FEMA Administrator Craig 
Fugate will testify first. Then we will hear from Laurel Blatchford, 
the Executive Director of the Hurricane Sandy Rebuilding Task Force. 
Administrator Fugate.
    [Fugate and Blatchford testimony. Questions to witnesses]
    Our final panel consists of State and local witnesses who represent 
areas where the detailed rebuilding effort will be planned and 
implemented. If you would, please introduce yourselves at the beginning 
of your testimony.
    [Testimony from Joseph H. Mancini, Mayor, Township of Long Beach, 
New Jersey; Scott Mandel, City Council President, Long Beach, New York; 
Brad Gair, Director of Housing Recovery Operations, New York City, New 
York. Questions to witnesses.]

               STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND

    Senator Gillibrand. Well, thank you, Madam Chairman, for 
holding this hearing. I can't tell you how much the families, 
small businesses, communities, and leaders appreciate you 
holding this hearing in New York, here in Staten Island, to 
give a voice to what happened here and to give a voice to what 
we can do better.
    And I just cannot thank you for your leadership. People 
don't know this but you have been such a stalwart in fighting 
for New York and New Jersey and the region. Your expertise with 
what took place with Hurricane Katrina could not be matched by 
anyone in the Senate. And so your ability to advocate 
effectively for the resources we need has been such a 
tremendous asset. And I just cannot thank you enough on behalf 
of all New Yorkers for your dedication to helping our families.
    When Superstorm Sandy hit just over 4 months ago, our State 
suffered unimaginable losses. More than 300,000 homes were 
damaged or destroyed. More than 250,000 businesses were 
affected, and many of them still have not been able to open 
their doors today.
    Tragically, 60 New Yorkers lost their lives, and too many 
of our neighborhoods and communities have been left scarred by 
these heartbreaking losses.
    In Staten Island, perhaps in the most devastating moment 
for me when I first came to Staten Island, I met with law 
enforcement who were trying to recover the bodies of two 
children who were literally whisked out of their mother's arms 
because of flooding waters, and who drowned.
    I met with a woman on the trip who came up to me in tears, 
saying I am going to die if I don't get help.
    That is how this community was so badly damaged, so badly 
hurt.
    But I also met so many New Yorkers who, even though a boat 
crushed their restaurant because of the flooding tides, they 
said, I am from here, I am going to rebuild, and it is going to 
be better than it was before.
    So we saw these great stories of sadness and horror, but 
also many stories of courage and strength.
    Flooding left damage in Lower Manhattan and Red Hook all 
the way into the Bronx and into Westchester. The hardest hit in 
New York City were our most vulnerable coastline neighborhoods 
like Staten Island's South Shore, Coney Island, Breezy Point, 
and the Rockaways.
    And the nature of this storm was so severe that even areas 
outside the mandatory evacuation zone, like Gerritsen Beach and 
Howard Beach, were absolutely devastated by the storm.
    On Long Island, I toured communities like Lindenhurst and 
Massapequa, and saw homes that were destroyed and washed away.
    The power of the storm was so great that it knocked some 
buildings clear off their foundations, left both boats and 
vehicles dislodged into homes and strewn across people's yards.
    In Long Beach, the shore was destroyed beyond recognition. 
On Fire Island, the barrier island that took the brunt of the 
storm for Suffolk County, communities are still trying to clean 
up the debris.
    Across the region and right here on Staten Island, many 
residents have been displaced, and many people are still not 
able to return to their homes. They are waiting for the 
additional assistance that the Government can provide to fill 
the gaps.
    They need our help. And the longer they have to wait, the 
more they are confronted with additional problems, like mold in 
their homes, rodent infestation, and other complicating factors 
for rebuilding.
    An issue I believe that we could fix is the reoccurring 2-
week extension for temporary FEMA assistance, which basically 
compounds the worries that families face when they don't know 
if it is going to be there after a week or after another week. 
So I am urging FEMA to extend temporary assistance for 120 days 
to eliminate that worry and anxiety.
    Now, for too many of our families, the trauma of the storm, 
the aftermath, has been exasperated by the continuing struggle 
just to navigate the maze of Federal bureaucracy. Insurance 
companies, mortgage lenders are all slow in the claims process, 
and, in too many instances, are holding insurance claims in 
escrow.
    My office alone has been contacted by more than 1,000 
households and businesses asking for our direct assistance in 
the recovery. And each day, more and more are still reaching 
out for the help they desperately need.
    So I am so grateful for today's testimony from leaders on 
the ground who can provide some of the insight as to how we can 
ensure this rebuilding process is done as efficiently and as 
quickly as humanly possible.
    Last, we all know that we are seeing the storm of the 
century over and over again, every single year. So we have to 
be better prepared for the next, and rebuild not just better 
but smarter and more resilient.
    So one piece of legislation I am working on, hopefully, 
with your help and support, will be a study requiring the 
Federal Government to develop a national resiliency strategy to 
improve access to information, so that all levels of government 
have the tools they need to make smarter decisions and do the 
work that is necessary to actually protect our coastlines.

                           PREPARED STATEMENT

    So I look forward to hearing from my colleagues. I am so 
grateful, again, Madam Chairman, for you being here. Thank you 
for the opportunity to speak on behalf of New Yorkers.
    [The statement follows:]
            Prepared Statement of Senator Kirsten Gillibrand
    On behalf of the families and small business owners throughout New 
York City still suffering from the effects of Superstorm Sandy, I would 
like to give a warm welcome to Chairwoman Landrieu and the members of 
the subcommittee to Staten Island. Your being here, in one of the 
borough's that was hardest hit by the storm to ensure that we have the 
Federal response in place to rebuild quickly . . . shows your deep 
commitment to standing by New York in our time of need.
    I also want to especially thank Senator Landrieu for her 
extraordinary leadership on this subcommittee. She helped us literally 
every step of the way in passing the critically needed $60 billion in 
Federal emergency aid. Having lived through Hurricane Katrina, she 
didn't wait a minute to extend her hand to help our region in any we 
should could. She is not just a friend to me . . . she is a friend to 
all New Yorkers. Thank you for your leadership.
    When Superstorm Sandy hit our shores just over 4 months ago, our 
State suffered unimaginable losses. 305,000 homes were damaged or 
destroyed, many due to extreme flooding. More than 256,000 businesses 
were affected, and many are still unable to open their doors. 
Tragically, 60 New Yorkers lost their lives, and too many of our 
neighborhoods and communities are left scarred by heartbreaking loss.
    Just a few miles from here on Staten Island's south shore, I 
witnessed an NYPD scuba team carry out a rescue and recovery mission of 
two young boys who had drowned in the floodwaters. I met one woman who 
was so desperate she literally sobbed to me, ``I am going to die.'' I 
saw boats from the marina washed into restaurants.
    Flooding left damage in lower Manhattan and Red Hook all the way 
north into the Bronx and Westchester. And hardest hit in New York City 
were our most vulnerable coastal neighborhoods like Staten Island's 
south shore, Coney Island, Breezy Point, and the Rockaways.
    The nature of this storm was so severe that even areas outside of 
the mandatory evacuation zones like Gerritsen Beach and Howard Beach 
were devastated by this storm.
    On Long Island, I toured communities like Lindenhurst and 
Massapequa and saw homes that were nearly washed away. The power of the 
storm was so great that it knocked some buildings clear off of their 
foundations and left boats and vehicles lodged into homes and across 
strewn yards.
    In Long Beach, the coastline was destroyed beyond recognition. On 
Fire Island, the barrier island that took the brunt of the storm in 
Suffolk County, the community is still trying to clean up the debris 
left by the storm.
    Across this region, and right here on Staten Island, many residents 
are still displaced. They are waiting for additional assistance that 
the government can provide to help fill in the gaps. They need our help 
. . . and the longer that they have to wait . . . the more they are 
confronted with the additional problems of mold and rodent infestation, 
among other complicating factors.
    An issue that I believe we can and should fix is the reoccurring 2-
week extensions for temporary FEMA assistance which compounds the 
worries of families trying to get through this crisis. I encourage FEMA 
to extend temporary assistance to 120 days and eliminate that worry for 
families.
    For too many families, the trauma of the storm and its aftermath 
has been exacerbated by a continuing struggle to navigate the maze of 
Federal bureaucracy, insurance companies and mortgage lenders that are 
slow to process claims, or in too many instances, are holding insurance 
claims in escrow.
    My office alone has been contacted by well over 1,000 households 
and business asking for our direct assistance in their recovery and 
each day more and more are still reaching out. I hope today's testimony 
from leaders on the ground will help provide us with valuable insight 
for how to ensure this rebuilding process is done as efficiently and 
quickly as humanly possible.
    Lastly, we all know we are seeing the storm of the century over and 
over again. We have to be better prepared for the next storm . . . and 
rebuild not just better . . . but smarter . . . and more resilient.
    I will be introducing legislation later this year requiring the 
Federal Government to develop a national resiliency strategy, and 
improve access to information so that all levels of government have the 
tools they need to make smart decisions and better protect our 
coastlines. I look forward to working with my colleagues on the 
subcommittee on this legislation.
    Thank you again, Chairwoman Landrieu, for the opportunity to 
testify today.

    Senator Landrieu. Thank you so much, Senator Gillibrand.
    I don't know how much your time will allow. I just maybe 
would like to ask one question, and then I know you probably 
have to slip out.
    What are you hearing from your local officials that really 
resonated with you about their plans for recovery? Are they 
encouraged, are they anxious, a combination of both? What do 
they tell you about some of the difficulties that they might be 
having in trying to get their plans for recovery in place?
    Senator Gillibrand. Well, different local officials will 
have different challenges, depending on how they were hit.
    But the stories that I hear most from residents is the 
runaround, it is the constant runaround from their insurance 
agent who doesn't want to reimburse until they get recovery 
money here. The number of denials they get. First they will be 
denied over and over and over again, because there is a typo or 
a piece of information that is missing. Just a lack of 
information and understanding of how they will possibly 
rebuild.

                            FLOOD INSURANCE

    Most of the FEMA money certainly can't cover the loss. A 
lot of people have insurance, but that is not going to cover 
the full loss. Some people have some flood insurance, but that 
doesn't cover the full loss.
    And so the reality of New York is it is a very expensive 
State to rebuild. And for a lot of these families, they are 
just not getting the money they need to do the work. So there 
is a lot of delay, and there is a lot of runaround.
    So what we need to do, and I know this was a challenge in 
Hurricane Katrina as well, how do you streamline these 
operations? How do you make them more efficient? How do we get 
the funds flowing that are so desperately needed?
    Those are the challenges I think most communities are 
facing: getting the funds flowing, getting the right amount of 
funds for the real severity of the problems these communities 
are facing.
    Senator Landrieu. And I would just like to underscore that 
I think this was one of the successes of your advocacy and the 
team from this region, to advocate for the $50 billion--
actually, we were hoping for $60 billion, as you know, and had 
to take some compromises to get it. But to get that money so 
that the local communities know what they can count on.
    There were some that suggested that dribbling out $5 
billion here, $10 billion there, because, of course, all the 
money is not going to be spent in the next 6 months. But what 
people have to realize is, you can't do very efficient or 
effective planning, unless you have that lump sum that you know 
you can count on, and then operate over the next 2, 3, 4, 5 
years for recovery.
    So we have won that battle, but I am not sure we have 
completely resolved that argument. And I hope people will see, 
despite the fact that there is still a lot of bureaucracy and 
red tape, that getting a significant contribution toward this 
effort to give the local officials and local communities some 
hope to come up with a plan that may work is better than 
dribbling it out over time.
    Senator Gillibrand. And I think this hearing is such an 
important component to that, because not only are you going to 
hear from the Federal representatives, but you are going to 
hear from some local leaders to begin to create a record of 
what has to be done going forward to streamline current 
operations, but also to fix future operations.
    Senator Landrieu. Well, I just want to assure you that I 
know from personal experience that it is not just the money. It 
is how the money comes, under what categories, and with what 
flexibility. And I am going to continue to work with you every 
step of the way until the rebuilding is done.
    Senator Gillibrand. Thank you, Madam Chairman.
    Senator Landrieu. Thank you very much.
    If panel two will come forward?
    And thank you again, Senator Gillibrand.
    Our next panel will speak to the Federal role in Hurricane 
Sandy recovery. FEMA Administrator Craig Fugate will testify 
first. Then we will hear from Laurel Blatchford, the Executive 
Director of Hurricane Sandy Rebuilding Task Force.
    Let me say that Administrator Craig Fugate comes with 
outstanding credentials to serve in the important position that 
the President has tapped him to serve. Having years of 
experience with disaster recovery, most specifically, I guess, 
with the State of Florida, leading their efforts through 
multiple storms in very difficult circumstances.
    So, Mr. Fugate, let me just thank you for your leadership, 
for being the kind of innovative leader that I think that 
taxpayers are looking for, as well as the survivors of storms. 
And I really appreciate you and your team sticking with it 
until we get it right.
    Administrator Fugate.
STATEMENT OF HON. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY
    Mr. Fugate. Thank you, Madam Chairman.
    You have outlined the severity and the size and the scope 
of Hurricane and then Superstorm Sandy. I want to back up a 
little bit, though.
    Why our response worked the way it did has a lot to do with 
your efforts and the efforts of others after Hurricane Katrina 
to address known shortfalls. I want to give some examples, 
because I think in the legislation you introduced and passed as 
part of the supplemental, we are able even to move further. But 
let's start with the Post-Katrina Emergency Management Reform 
Act.

                         FEMA'S EARLY RESPONSE

    One of the big concerns in Hurricane Katrina was the State 
had to be overwhelmed before the Federal Government could 
provide assistance. We know in a large-scale disaster, that 
slows everything up. Given the authority that you invested in 
FEMA, we were able to move supplies and a personnel team, and 
had more than 1,000 people deployed throughout the risk area.
    Again, we now know that New Jersey and New York took the 
brunt of this and were ground zero for Superstorm Sandy. But at 
the time, before it made landfall, the concern was anywhere 
from the Delmarva Peninsula, including Washington, DC, all the 
way to Maine. And as we saw with Hurricane Irene, there were 
inland impacts, and for the first time in my career, the 
National Hurricane Center had a blizzard warning for West 
Virginia. So over a larger area, we were preparing for those 
impacts.
    The night of the landfall, another provision that had been 
implemented was the ability to more rapidly do expedited 
disaster declarations.
    President Obama, in conversations with Governors of both 
New York and New Jersey, concurred with our recommendation and 
declared major presidential disaster declarations based upon 
the verbal requests of both Governors--again, something that 
was enabled through this.
    Our ability to respond was part of the budget agreement 
that, if you remember in Hurricane Irene, we went into 
immediate needs funding, because the Disaster Relief Fund, the 
mechanism by which we prepare for and provide assistance and 
recovery, had almost run out at the end of that fiscal year.
    This year, we were both adequately funded to continue our 
work on existing disasters, most recently Hurricane Isaac in 
your home State and Mississippi, as well as prepared.
    But the size and gravity of Superstorm Sandy definitely 
pointed to the limitations of FEMA's programs, as designed in 
many cases, and the need for additional funds.
    And again, we thank you for your work, Senator Gillibrand, 
Senator Schumer, and everybody else who got the supplemental, 
and understanding that our job at FEMA does not make people 
whole. That is why our partnership with the Department of 
Housing and Urban Development (HUD) and other Federal agencies 
is so key for the long-term recovery.
    We have implemented the National Disaster Recovery 
Framework, which was, again, directly from the Post-Katrina 
Reform Act. But we also felt, and the President directed, that 
because this was going to involve such large rebuilding efforts 
in multiple States, the President wanted a Cabinet-level 
official who had local knowledge and expertise. And as you 
pointed out, he has asked Secretary Donovan to lead the long-
term recovery of implementing all of the Federal programs that 
go beyond the FEMA programs that are most immediate and deal 
with the immediate impacts, and focus on a lot of the pre-
existing and longer term conditions that will be required for 
successful recovery.
    So the response, while challenging, didn't end when the 
power came back on for far too many residents that are still 
dealing with this. We still have more than 1,400 families, as 
Senator Gillibrand pointed out, in temporary or transitional 
shelters. Those are hotel and motel rooms. And we worked very 
well with the State in trying to find longer term solutions, 
because we realize those are not good places to be for long 
periods of time. Yet, in many cases, the availability of rental 
properties, and other suitable locations, limits our ability to 
rapidly move people out. But we continue to work with our State 
partners to find long-term housing and work with the States on 
that.

                             CLIMATE CHANGE

    The last piece I want to give to you, though, was something 
you brought up, and it is something that the President has 
directed us to look at. Although many people have debated 
climate change, the President's direction to us is we need to 
be looking at climate adaptation; the term ``100-year storm 
event'' seems to lose its meaning if we are having 100-year 
events every couple of months.
    And so looking at rebuilding, our normal way that we look 
at cost-benefit, and how we determine a good investment for 
mitigation strategies, is oftentimes based upon the value of 
the structure and the insured loss. We want to take a different 
approach and look at what is the function of that critical 
facility and look at applying mitigation both for the known and 
for the unknown.

                           PREPARED STATEMENT

    We think it is more appropriate to look at enhancing our 
mitigation for certain types of critical facilities beyond 
those we have normally looked at, because it does not seem like 
that these storms are going to slack. And I don't see a need to 
rebuild a fire station only to be flooded out in the next 
hurricane because we did not build it for the future.
    Thank you, Madam Chairman.
    [The statement follows:]
                Prepared Statement of Hon. Craig Fugate
                              introduction
    Good morning, Chairwoman Landrieu, Ranking Member Coats, and other 
distinguished members of the subcommittee. I am Craig Fugate, the 
Administrator of the Federal Emergency Management Agency (FEMA), and I 
am grateful for the opportunity to speak here today.
    I look forward to discussing the coordinated response that was 
undertaken in the immediate aftermath of Hurricane Sandy and the 
ongoing recovery efforts.
    Prior to Hurricane Sandy making landfall, FEMA worked with our 
partners at all levels of government as well as within the private 
sector to assist our citizens and first responders as they prepared for 
the storm. As a result of these efforts, at the request of State and 
local officials the Agency was able to support a prompt, coordinated 
response that brought to bear the full resources of Federal, State and 
local government, in conjunction with our private sector partners. The 
multifaceted coordination that took place on the front end provided our 
team with a keen understanding of the challenges that lay ahead, which 
allowed for planning for the recovery phase to begin before the storm 
even made landfall.
    Over the past several years, FEMA's regional offices have worked 
closely with the State, local and tribal governments across the 
country--including those directly in Sandy's path--to develop 
catastrophic, worst case scenario plans that are flexible and scalable 
for incidents of all magnitudes. FEMA's ongoing partnership with States 
allows coordination and collaboration with the whole community to plan 
and prepare for a range of disaster events.
                     immediate response operations
    On October 28, 2012, the President authorized emergency 
declarations for Connecticut, the District of Columbia, Maryland, 
Massachusetts, New Jersey, and New York. The following day, the 
President authorized emergency declarations for Delaware, Pennsylvania, 
Rhode Island, and Virginia. Initially, these declarations authorized 
FEMA to provide direct Federal assistance for emergency protective 
measures. The President later authorized major disaster declarations 
for Connecticut, Delaware, Maryland, New Hampshire, New Jersey, New 
York, Rhode Island, Virginia, and West Virginia. These declarations 
provide declared counties and States assistance with emergency work and 
debris removal as well as access to FEMA programs, most notably 
Individual Assistance, Public Assistance, and the Hazard Mitigation 
Grant Program which provide assistance to individuals and local and 
State governments following a disaster.
    Hurricane Sandy also represented one of the largest personnel 
deployments in FEMA's history. By Sunday, October 28, there were 1,032 
FEMA personnel deployed in anticipation of Sandy's impacts. 
Approximately 1 week after the storm made landfall, there were 5,384 
FEMA personnel deployed. Furthermore, at the peak of the response, more 
than 17,000 Federal personnel, and over 11,000 national guardsmen were 
on the ground assisting with response efforts. This included the 
historic activation of the Department of Homeland Security Surge 
Capacity Force totaling 1,100 volunteers.
    Before the storm made landfall, FEMA and its emergency management 
partners facilitated the establishment of shelters, disaster recovery 
centers (DRCs), points of distribution (PODs), and joint field offices 
(JFOs) in the affected areas. At peak, 716 shelters were open with a 
population of 26,913 in 16 States. FEMA, in collaboration with our 
interagency partners, moved to transition survivors out of shelters 
into long-term housing solutions as quickly as possible. As of February 
22, 2013, only two shelters remain open in New York, with an aggregate 
population of less than 100. FEMA continues to work with our partners 
to help disaster survivors who remain in shelters find permanent 
housing solutions.
  disaster relief fund and disaster relief appropriations act of 2013
    The Disaster Relief Fund (DRF) provides funding for eligible 
response and recovery efforts associated with domestic major disasters 
declarations that overwhelm State, local and tribal resources. Through 
the DRF, FEMA funds Federal disaster support activities as well as 
eligible State, territorial, tribal, and local actions, such as 
providing emergency protective measures, individual and housing 
assistance, and debris removal. The DRF also funds: the repair and 
rebuilding of qualifying disaster-damaged infrastructure, hazard 
mitigation initiatives and other assistance to eligible disaster 
survivors.
    FEMA was appropriated $7.1 billion for the DRF in fiscal year 
2012--$700 million for non-major disaster declaration funding and 
activities authorized under the Stafford Act, and $6.4 billion 
exclusively for major disasters. The fiscal year 2013 short-term 
continuing resolution (CR), H.J. Res. 117, sustains this funding level 
until March 27, 2013. The CR provided FEMA with the resources to assist 
State, local, territorial, and tribal governments to recover from 
ongoing catastrophic and non-catastrophic events that took place prior 
to Hurricane Sandy and respond to other major and non-major disasters 
during fiscal year 2013.
    Hurricane Sandy ravaged communities along the east coast from Maine 
to West Virginia leading to 13 major presidential disaster 
declarations. Given the scope of the damage wrought by the storm, 
Congress passed the Disaster Relief Appropriations Act of 2013, which 
the President signed into law on January 29, 2013. The bill provides an 
additional $11.49 billion for the DRF along with critical funding for 
FEMA's interagency partners who will be leading efforts to help rebuild 
infrastructure, modernize flood control systems and revitalize damaged 
housing. The appropriation will allow the recovery from Sandy to move 
forward while ensuring that ongoing operations from previous disasters 
continue.
    As of February 7, approximately $3.5 billion has been obligated 
from the DRF for FEMA's response and recovery operations stemming from 
Sandy.
    I want to thank the members of this committee for working to 
include several key changes to the Stafford Act within the broader 
Sandy appropriations measure. The provisions include significant 
reforms to the Agency's recovery and mitigation programs which will 
help FEMA lower costs while helping improve services to disaster 
survivors. Furthermore, a provision was also included that allows 
federally recognized Native American tribes direct access to Federal 
disaster relief. FEMA has strong, long-standing relationships with 
tribal governments, and they are essential members of the emergency 
management team. Fully implementing this historic provision will 
require consultation with tribes and other stakeholders, particularly 
as FEMA develops the administrative and programmatic requirements and 
procedures necessary to execute the law.
    Given the current discussion on the Hill, I will note that if the 
impacts of sequestration are not addressed, the Disaster Relief Fund 
(DRF) would be reduced by nearly $1 billion, potentially affecting 
survivors recovering from Hurricanes Sandy and Isaac, the tornadoes in 
Tuscaloosa and Joplin, and other major disasters across the Nation, as 
well as the economic recoveries of local communities in those regions. 
Sequestration cuts could also require FEMA to implement immediate needs 
funding restrictions during what is historically the season for 
tornados, wild fires, and hurricanes, which would limit funding for new 
projects in older disasters.
                      recovery--working as a team
    Federal assistance is an important step in helping disaster 
survivors recover from events like Hurricane Sandy, but is not the only 
option. State and local governments have robust capabilities to respond 
to and recover from natural and manmade disasters. In addition, the 
wide and diverse numbers of nonprofit and voluntary agencies provide an 
extraordinary amount of disaster relief and recovery resources to 
affected communities. As I highlight throughout this testimony, FEMA 
also works with many other Federal and State agencies, such as the 
Small Business Administration (SBA) and the Department of Housing and 
Urban Development (HUD), to assist disaster survivors. Finally, we rely 
on the whole community's participation, including the help of the 
public to prepare for disasters.
                         individual assistance
    In response to the Hurricane Sandy recovery efforts, the 
Individuals and Households Program (IHP) has provided monetary 
assistance to over 170,000 disaster survivors in New York, New Jersey, 
and Connecticut. Assistance available through IHP includes housing 
assistance, such as temporary housing, repair, and replacement, and 
assistance for other serious and necessary expenses, such as personal 
property, medical and funeral needs caused by the disaster.
    As of February 25, FEMA, along with our partners at the U.S. Small 
Business Administration (SBA), who assist by providing low-cost loans 
to cover uninsured property losses and for business owners, have 
approved more than $1.7 billion for Hurricane Sandy survivors in New 
York. Under IHP, FEMA has approved over $900 million including more 
than $789 million for housing assistance and nearly $123 million in 
assistance for other needs.
    In New Jersey, disaster survivors from 21 counties have been 
awarded more than $360 million including $314 million for housing 
assistance and more than $47 million in assistance for other needs. Our 
partners at the SBA are also working diligently to help New Jersey 
businesses and families get back on their feet by approving nearly $470 
million in low-interest loans.
                           public assistance
    In New York, over 1,700 requests for Public Assistance have been 
submitted and nearly $670 million has been obligated. Given the 
significant structural damage that Sandy left in its wake, debris 
removal, which is funded under FEMA's Public Assistance program, is a 
paramount factor in getting hard hit communities on the road to 
recovery as quickly as possible.
    In addition to assistance for emergency protective measures and 
debris removal, Public Assistance provides funding for the repair, 
restoration, reconstruction, or replacement of infrastructure that is 
damaged or destroyed by a disaster. Eligible applicants include State, 
local and tribal governments. Certain private nonprofit (PNP) 
organizations that provide governmental services may also receive 
assistance.
    I am pleased to report that as of the beginning of February, debris 
removal efforts are nearing completion. More than 95 percent of the 
debris has been removed within 95 days of the storm hitting New York. 
That includes everything from fallen trees to vehicles, boats, drywall, 
furniture, washers, dryers, and insulation amounting to 5.25 million 
cubic yards of debris.
    In New Jersey, over 1,600 requests for Public Assistance have been 
submitted and nearly $153 million has been obligated. FEMA obligated 
$29 million to the New Jersey Department of Human Services for 
providing temporary housing and resources for electrical crews working 
to restore power. Additionally, FEMA has approved 465 projects to help 
remove hurricane debris and restore disaster-damaged roads, bridges and 
other infrastructure. Among the largest grants to date was $11.2 
million to the Passaic Valley Sewerage Commission for emergency repairs 
to a wastewater treatment plant that serves 48 communities and treats 
330 million gallons of sewage daily.
    FEMA is working closely with its partners to proceed to project 
formulation and project worksheet preparation to address damage caused 
by Sandy. Through expedited payments, FEMA can reimburse local 
governments more quickly in order to help the local communities recover 
from the disaster. These are commonly referred to as expedited project 
worksheets (PWs). FEMA will obligate a portion of the Federal share of 
the estimated cost of work under category A (debris removal) and 
category B (emergency protective measures) as estimated during the 
preliminary damage assessment.
  hazard mitigation grant program and national flood insurance program
    The Hazard Mitigation Grant Program (HMGP) assists in implementing 
long-term hazard mitigation measures following major disaster 
declarations. Funding is available to implement projects in accordance 
with State, tribal, and local priorities. HMGP funds may be used for 
projects that will reduce or eliminate losses from future disasters. 
Projects must provide a long-term solution to a problem, for example, 
elevation of a home to reduce the risk of flood damages as opposed to 
buying sandbags and pumps to fight the flood. In addition, a project's 
potential savings must be more than the cost of implementing the 
project. Funds may be used to protect either public or private property 
or to purchase property that has been subjected to, or is in danger of, 
repetitive damage. Eligible applicants include State, local and tribal 
governments as well as certain nonprofit organizations. Individual 
homeowners and businesses may not apply directly to the program; 
however a community may apply on their behalf.
    In both New York and New Jersey, FEMA mitigation staff has met and 
continues to work closely with the State hazard mitigation officers to 
discuss the States' priorities, types of projects available, and how 
best to proceed within that framework.
    FEMA recognizes that mitigation is an essential component to 
national preparedness and emergency management. Working closely with 
the whole community, before, during and after a disaster allows States 
and communities to plan and invest wisely into critical projects that 
save not only money, but most critically, lives. As I will discuss in 
an upcoming section on the National Disaster Recovery Framework (NDRF), 
the Agency is urging our State and local partners to take concrete 
steps to mitigate against future events as they work to help their 
communities recover from Sandy.
    In terms of the National Flood Insurance Program (NFIP), Hurricane 
Sandy has generated more than 143,000 claims in New Jersey, New York 
and elsewhere. Since that time, the NFIP has paid out more than $5 
billion to our policyholders. In New Jersey, there were over 73,000 
flood insurance claims made and to date, over 51,000 have been closed. 
Congressional passage of H.R. 41, a bill which temporarily increased 
FEMA's borrowing authority under the NFIP, insured that the payment of 
claims has continued uninterrupted.
                                housing
    Housing in many communities was significantly impacted due to the 
widespread effects of Sandy. FEMA convened the Hurricane Sandy 
Catastrophic Disaster Housing Task Force on November 6, 2012, to 
address housing issues in support of State and field operations.
    As all disasters are local, each community and State faces 
different challenges. The State-led disaster housing task forces in New 
York and New Jersey involve a collaborative approach to addressing the 
temporary housing and long-term needs of the disaster survivors, 
including the collection of available rental resources, projecting 
housing needs and exploring other options. Task forces include 
representatives from State, local and voluntary agencies, and Federal 
partners including FEMA, the Department of Housing and Urban 
Development (HUD), the United States Army Corps of Engineers, the Small 
Business Administration (SBA), the Department of Veterans Affairs (VA) 
and the United States Department of Agriculture (USDA). The teams are 
working together to ensure they are making the greatest use of existing 
housing resources (such as apartments and rental units), enlisting 
voluntary agencies to make minor repairs so survivors can remain in 
their homes, and investigating other temporary housing options suitable 
for the area.
    In both New York and New Jersey, FEMA has completed over 99 percent 
of all requested housing inspections. If a home cannot be repaired 
easily to safe and sanitary conditions, then local rental resources are 
the preferred first choice for housing disaster survivors as they 
recover. To address the difficulty in finding suitable rental 
properties at HUD fair market rent (FMR), FEMA temporarily raised the 
rental assistance amount provided to eligible disaster survivors in New 
York and New Jersey and Connecticut to 125 percent of FMR. This 
increase was implemented immediately after the disaster and will 
continue as survivors are recertified for temporary housing assistance 
for up to 18 months. In addition, through the FEMA Housing Portal, 
eligible individuals and families who have been displaced by Hurricane 
Sandy can search for available rental units in their area that have 
been provided by Federal agencies such as HUD, U.S. Department of 
Agriculture, U.S. Veterans Administration, the Internal Revenue 
Service, as well as by private organizations and individuals.
    As a particularly densely populated area, New York presents FEMA 
with many housing challenges. The Agency--along with the State, Federal 
partners and voluntary organizations--has been working to implement 
housing solutions that will best serve Hurricane Sandy survivors in New 
York. A committee composed of FEMA, HUD, the State, and other agencies 
convened to specifically address long-term housing solutions for 
survivors in New York. A similar committee was also convened in New 
Jersey. Both committees discussed the implementation of housing 
assistance strategies to address the unique needs of disaster survivors 
in each State.
    On November 3, 2012, FEMA activated the Transitional Shelter 
Assistance Program (TSA) in both New York and New Jersey. The program 
allows survivors to stay in area hotels while FEMA, the State and 
voluntary agencies assist them with their long-term housing plans. 
Since its activation in New York, the TSA program assisted nearly 6,000 
survivors. On February 21, 2013, FEMA extended the TSA program at the 
request of the State of New York for an additional 14 days. The 
extension was approved to help those applicants still eligible for the 
program to remain in hotels as FEMA and its State and local partners 
work to identify longer term housing solutions.
    In New Jersey, FEMA and the State temporarily sheltered more than 
5,500 individuals and families through TSA, enabling survivors to work 
on longer term housing solutions. On February 20, 2013, FEMA extended 
the TSA program at the request of the State of New Jersey for an 
additional 14 days. FEMA also coordinated a housing mission that 
included HUD, the New Jersey Department of Community Affairs and the 
U.S. Army Corps of Engineers, which used $3.3 million to refurbish 115 
housing units at Fort Monmouth, New Jersey.
    On November 15, 2012, the President announced that Housing and 
Urban Development Secretary Shaun Donovan will lead the Sandy 
Rebuilding Task Force. In this capacity, the Secretary will work 
closely with Governors, mayors and local officials in New Jersey and 
New York as they begin the process of identifying redevelopment plans 
for affected communities. HUD is already an integral partner in the 
response and recovery of areas affected by disasters. As I noted, we 
work closely with HUD to identify housing resources, provide the best 
housing support to disaster survivors, and serve as a crucial base of 
knowledge and guidance in disaster housing missions. FEMA looks forward 
to supporting Secretary Donovan in his mission and HUD's continued 
support of FEMA as we respond to and recover from Sandy.
                  national disaster recovery framework
    This National Disaster Recovery Framework (NDRF) is a guide that 
defines how the whole community will work together following a disaster 
to best meet the recovery needs of individuals and families, 
communities and States. The framework is based on the principle that 
all of our partners, including the private sector, nonprofit 
organizations and individual citizens, and local, State, tribal, and 
Federal Government agencies have a role to play in the recovery 
process.
    The NDRF introduces six new recovery support functions (RSF) that 
are led by designated Federal coordinating agencies. In addition to 
FEMA's established stakeholders, recovery support functions involve 
partners in the local, State and tribal governments and private and 
nonprofit sectors that traditionally have not been involved in 
emergency support functions but are critical in disaster recovery. Each 
RSF has a designated coordinating agency along with primary agencies 
and supporting organizations with programs, resources or focus relevant 
to the functional area. The six RSFs and their coordinating agencies 
are: Community Planning and Capacity Building (DHS/FEMA), Economic 
(Department of Commerce), Health and Social Services (Department of 
Health and Human Services), Housing (Department of Housing and Urban 
Development) Infrastructure Systems (United States Army Corps of 
Engineers), and Natural and Cultural Resources (Department of 
Interior).
    As the level of response activities declines and recovery 
activities accelerate, the Federal disaster recovery coordinator (FDRC) 
will engage with the RSF agencies to organize and coordinate Federal 
recovery assistance. As we saw in the aftermath of Hurricane Sandy, 
during this early recovery phase, the FDRC and the RSF coordinators are 
working closely with emergency support function (ESF) leads to share 
information about impacts and assistance provided and working to foster 
relationships at all levels.
    As we move into the long-term recovery phase for areas affected by 
Hurricane Sandy, the benefits of working collaboratively under the NDRF 
are being demonstrated. The FDRC for New York initiated a Beach 
Infrastructure Task Force which brings together stakeholders from the 
Federal, State and local level to identify key damage areas and 
prioritize recovery efforts. Through a mission assignment, the task 
force utilized the technical expertise of the U.S. Army Corps of 
Engineers (USACE) to complete assessment of damages for emergency 
shoreline repair and compile environmental data related the sand 
sources.
    Through the use of the mitigation advisor, the NY FDRC convened an 
Advisory Base Flood Elevation/Mitigation Task Force to ensure senior 
management and partners at the Federal, State and local level had 
visibility on the development and release of flood advisory data that 
could significantly influence rebuilding and restoration decisions. 
Comprised of FEMA program offices that administer Stafford Act 
programs, representatives across all RSFs, and FDRC staff, the task 
force is working in conjunction with State and local partners to 
identify and address the impacts of advisory data on insurance rates, 
building codes, and other intermediate and permanent efforts to 
recover.
    In New Jersey, the FDRC has recruited and hired 10 local community 
recovery assistance specialists with local community expertise to 
provide redevelopment and planning technical assistance in impacted 
communities. These personnel, who will focus solely on Sandy recovery 
operations in the State, come from diverse professional backgrounds 
including community planning, economic development, finance, 
transportation, architecture, civil engineering, and municipal 
management.
    In support of local disaster leadership, the Community Planning and 
Capacity Building RSF worked with local philanthropic organizations to 
identify funding sources for long-term recovery planning and capacity 
building. This culminated in an opportunity to work with the Council of 
New Jersey Grantmakers, who selected New Jersey Future to receive a 
$150,000 MERCK Foundation grant. New Jersey Future is a citizen-based, 
nonprofit, nonpartisan group that promotes smart land use policy; they 
will use the funds to hire a local disaster recovery manager to support 
recovery in at least three New Jersey communities.
    In partnership with the New Jersey Department of Labor and 
Workforce Development, the Economic RSF in New Jersey developed an 
economic Data Sharing Task Force and established three working groups 
focusing on small business recovery, tourism, and marine and 
aquaculture industries. In coordination with the New Jersey Department 
of Economic Development, the Economic RSF sponsored three business 
forums for over 100 stakeholders to identify financial resources for 
small business recovery and facilitated Access to Capital forums 
throughout the State to communicate business funding and networking 
opportunities for struggling businesses. Participants of the forums 
included lending institutions, Chambers of Commerce, local economic 
development officials, freeholders, mayors, and businesses.
                              procurement
    Before concluding, I wanted to touch upon the role of FEMA's Office 
of the Chief Procurement Officer (OCPO) in the context of our disaster 
operations. OCPO partners with FEMA's program offices to establish 
prepositioned disaster response contracts. These contracts, used to 
provide much needed commodities, resources and services to devastated 
communities, are put in place well before disaster strikes, ensuring 
competitively awarded contracts with firm fixed prices, and reduced 
risk to the government. Presently, there are dozens of prepositioned 
contracts available to those managing the response to Presidentially 
declared disasters and emergencies.
    Following Hurricane Sandy's landfall, FEMA's Disaster Acquisition 
Response Team (DART) was deployed to the States of New York and New 
Jersey. The DART focuses on providing high-level disaster contracting 
and quality assurance support, contract oversight and quality assurance 
monitoring and timely closeouts of disaster contracts. The DART 
provided initial contracting support to Hurricane Sandy in New Jersey 
and will continue this contracting support through the close of this 
disaster.
    On another note, the Industry Liaison Program (ILP), which includes 
our local business transition teams (LBTT), is the single point of 
entry for vendors seeking to do business with FEMA. Our industry 
liaison also maintains an enterprise-wide repository--used to 
supplement market research for contracting officers--of vendors who 
contact the Agency. Staffed with a help desk, the program processes and 
routes vendor profile data to the appropriate FEMA program offices, 
including the Small Business Office, for follow-up.
    To date, the ILP/LBTT has responded to approximately 6,000 phone 
and e-mail inquiries providing vendors with information on how to do 
business with FEMA in support of Hurricane Sandy. LBTTs were deployed 
to Connecticut, New York, and New Jersey, where they conducted vendor 
business outreach and provided acquisition support for acquisitions 
targeted for local buying.
                               conclusion
    FEMA will continue to work closely with the whole community, 
including our State, local and tribal government partners, Secretary 
Donovan, HUD and other Federal partners as long-term recovery efforts 
move forward. FEMA recognizes that we must look to local, tribal and 
State leaders, as well as the whole community, to ensure the Agency is 
able to help locally driven efforts to rebuild impacted communities 
better and stronger than they were before Sandy made landfall.
    Thank you Chairwoman Landrieu for providing me this opportunity to 
appear before you today to discuss our ongoing recovery operations and 
the work that remains. I look forward to answering questions you or 
other members of the subcommittee may have.

    Senator Landrieu. Thank you. And I really am going to 
revisit with you on this smarter rebuilding, because it may be 
shocking to the audience to know that literally in Hurricane 
Katrina, under the rules that were mandated by the Congress, 
that it was actually illegal to build smarter, and you received 
a penalty for doing so. If you moved the fire station and 
didn't rebuild it exactly the way it was, you would get a 25-
percent penalty, which really didn't make any sense. And, of 
course, that has been corrected. But there are many more things 
like that that need to be done to really make everybody put 
their oars in the water at the same time, moving in the same 
direction, to spend taxpayer money smartly, again rebuilding 
these communities for the future, not rebuilding past 
communities, which, I think, everybody would be appreciative.
    So we will have some questions to follow up.
    Laurel, and I know you will start. We have read your 
testimony. But if you could really focus on what your role is, 
because I think it is a new--well, relatively new role under 
the new framework plan. And if you could make sure that we get 
that into the record and then go into your testimony.
STATEMENT OF LAUREL BLATCHFORD, EXECUTIVE DIRECTOR, 
            HURRICANE SANDY REBUILDING TASK FORCE
    Ms. Blatchford. Thank you again, Madam Chairman, for having 
me here today. This is really an honor to be here to testify 
regarding the ongoing effort to rebuild the region.
    And thank you too Senator Gillibrand and the rest of the 
delegation for their support as well.
    I currently serve as the Executive Director of Hurricane 
Sandy Rebuilding Task Force established by President Obama, as 
you know, and chaired by Housing and Urban Development 
Secretary Shaun Donovan.
    Hurricane Sandy and the nor'easter that followed had 
immense impacts in New York, New Jersey, Connecticut, Rhode 
Island, Maryland, and a number of other States. And as you know 
well, the storm caused tens of billions of dollars in damage 
and was the second most costly storm in American history, 
damaging or destroying thousands of small businesses and tens 
of thousands of homes.
    The administration's primary focus remains on addressing 
the region's most pressing needs and, as Administrator Fugate 
has discussed, the administration's coordinated Government-wide 
approach to response and near-term recovery.
    But as we learned from Hurricane Katrina and other past 
disasters, planning for long-term rebuilding must began even as 
response activities are underway. That is why the President 
created the Hurricane Sandy Task Force to deliver the same 
level of government wide coordination and responsiveness to 
help communities as they make decisions about long-term 
rebuilding.

                       HURRICANE SANDY TASK FORCE

    The task force does not seek to impose a one-size-fits-all 
approach to rebuilding. While the Federal Government has a very 
important leadership role to play, State and local governments 
must rebuild based on their own visions.
    We are working to support States and local communities 
within the National Disaster Recovery Framework. The task force 
complements the National Disaster Recovery Framework, by 
building on the unprecedented coordination that has already 
taken place among Federal, State, local, and tribal authorities 
during the response and ongoing recovery efforts to date. And 
we seek to carry this coordination forward as the recovery and 
rebuilding phase begins.
    With expertise of virtually the entire Cabinet represented, 
we are actively helping communities with their long-term 
rebuilding efforts in five key ways: First, by coordinating 
with all stakeholders to support cohesive rebuilding strategies 
and develop a comprehensive, locally driven regional plan 
within 6 months of our first meeting; second, by identifying 
and removing obstacles to effective rebuilding efforts and 
reducing regulatory burdens; third, by helping to coordinate 
the flow of Federal recovery funds and ensuring that the 
resources the Federal Government provides are informed by local 
priorities; fourth, by monitoring progress in rebuilding 
efforts to enhance accountability at every level, as well as 
prevent waste, fraud, and abuse; and finally, the task force 
will work with member agencies to ensure that the Federal 
Government is lending critical support to those on the ground 
so they can realize their respective visions for rebuilding and 
redevelopment.
    As you know, the task force is a short-term entity by 
design. Building on lessons learned from Hurricane Katrina and 
other disasters, the President asked the task force to convene 
early in the recovery process to ensure the principles for 
Federal investment are aligned, so there is less confusion down 
the road.
    Supporting local rebuilding efforts through financial means 
is a key part of the Federal role, and on January 29, 2013, 
President Obama signed the Disaster Relief Appropriations Act 
of 2013. Federal agencies and departments have already begun 
the process of making this money available.
    In addition to the work that FEMA has done, the Department 
of Transportation made available $2 billion through the Federal 
Transit Administration's new emergency relief program to repair 
and rebuild public transit equipment and facilities. And as you 
know, HUD has also announced the first round of allocations of 
the CDBG Disaster Recovery Program, totaling $5.4 billion, and 
HUD plans to make additional allocations very quickly, as 
quickly as it can in the coming months.
    The task force's role is not to supplant the agencies that 
have received appropriations at all, but to work with them to 
find ways to maximize the impact of these dollars and help 
support communities' redevelopment priorities, for example, by 
working with the SBA to find opportunities for data sharing 
that will help us identify areas of unmet need more quickly and 
more effectively.
    We will also help impacted communities use this funding to 
mitigate future risk from storms that science tells us will 
have intensity and severity increase in the future.
    As you know, mitigation is sensible and cost-effective, 
offering a $4 return on each $1 invested by preventing future 
damage.

                           PREPARED STATEMENT

    We look forward to continuing our work with this 
subcommittee and others in the Congress and the Federal family 
and our State and local partners to help communities rebuild in 
a way that makes them stronger, more economically sustainable, 
and better prepared.
    Thank you.
    [The statement follows:]
                Prepared Statement of Laurel Blatchford
    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee, thank you for the opportunity to testify today regarding 
the ongoing effort to rebuild in the region impacted by Superstorm 
Sandy. I currently serve as Executive Director of the Hurricane Sandy 
Rebuilding Task Force established by President Obama and chaired by 
Housing and Urban Development (HUD) Secretary Shaun Donovan. The 
President established the task force by Executive order in December and 
charged us to ``work to ensure that the Federal Government continues to 
provide appropriate resources to support affected State, local, and 
tribal communities to improve the region's resilience, health, and 
prosperity by building for the future.''
    With that mission in mind my testimony today will cover three 
subjects: (1) an assessment of the damage caused by Superstorm Sandy; 
(2) lessons learned from Hurricane Katrina and how we are applying 
those lessons to this rebuilding effort; and (3) a brief background on 
the formation and role of the Hurricane Sandy Rebuilding Task Force and 
the supplemental funding provided by Congress.
          the impact of and damage caused by superstorm sandy
    Superstorm Sandy and the nor'easter that followed have had immense 
and varied impacts in New York, New Jersey, Connecticut, Rhode Island, 
Maryland, and a number of other States. Within the United States, the 
storm caused 162 fatalities, major flooding, structural damage, and 
power loss to over 8.5 million homes and businesses, directly affecting 
more than 17 million people as far south as North Carolina, as far 
north as New Hampshire, an as far west as Indiana. Sandy caused tens of 
billions of dollars in damage and is estimated to be the second most 
costly storm in American history.
    Especially hard hit were New York and New Jersey, which employ 12.7 
million workers. Combined, they export about $90 billion in goods 
annually, accounting for about 7 percent of such exports, and 
contributed $1.4 trillion to our gross domestic product (GDP) in 2011, 
accounting for more than 11 percent of GDP.
    The widespread damage from Superstorm Sandy impacted communities in 
a variety of ways. Hundreds of small businesses and tens of thousands 
of homes were damaged or destroyed. State, local and tribal governments 
must address damage to roads, bridges, mass transit and other essential 
infrastructure, including electrical and water treatment facilities, 
public hospitals, and shorelines.
    ongoing response and recovery efforts and lessons learned from 
                           hurricane katrina
    Before I describe the task force's activities, it is important to 
note the unprecedented cooperation that is taking place among Federal, 
State, local, and tribal authorities. HUD, the Federal Emergency 
Management Agency (FEMA) and other parts of the Department of Homeland 
Security (DHS), as well as the Departments of Transportation, Health 
and Human Services, Interior, Commerce, andAgriculture, plus the Small 
Business Administration and the U.S. Army Corps of Engineers (USACE) 
and other agencies are all working together. For example, as a result 
of coordination under the National Response Framework (NRF), within a 
week after Sandy hit there were almost 11,000 National Guard and 17,000 
Federal responders on the ground from FEMA, the Department of Defense, 
USACE, HUD, Department of Transportation, Department of Energy, and 
HHS, as well as tens of thousands of utility workers from across the 
Nation. In addition, in the weeks since the storm, FEMA has approved 
approximately $3.5 billion in emergency assistance and has paid over $5 
billion in flood insurance claims to help those insured rebuild their 
lives. We are all coordinating our work with State, local and tribal 
officials, who are doing a truly Herculean job on the response and 
recovery. The private sector has been deeply involved as well. This 
unprecedented level of cooperation and partnership will help us 
continue to deliver recovery resources with speed and provide related 
assistance to the most affected areas.
    Early in his first term, President Obama recognized that our 
experience during Hurricane Katrina and other previous disasters 
highlighted the need for additional guidance, structure, and support to 
improve how we as a Nation address disaster-related recovery and 
rebuilding challenges. In September 2009, President Obama charged the 
Departments of HUD and Homeland Security to work on this effort and to 
establish a Long Term Disaster Recovery Working Group, composed of more 
than 20 Federal agencies. HUD, DHS, and theWorking Group consulted 
closely with State, local and tribal governments as well as experts and 
stakeholders, and worked to improve the Nation's approach to disaster 
recovery and to develop operational guidance for recovery efforts.
    In September 2011, FEMA published the National Disaster Recovery 
Framework (NDRF). The NDRF addresses the short, intermediate, and long-
term challenges of managing disaster-related recover and rebuilding. It 
sets forth flexible guidelines that enable Federal disaster recovery 
and restoration managers to operate in a unified and collaborative 
manner and to cooperate effectively with State, local, tribal, and 
territorial governments. The NDRF defines core recovery principles; 
roles and responsibilities of recovery coordinators and other 
stakeholders; flexible and adaptable coordinating structures to align 
key roles and responsibilities and facilitate coordination and 
collaboration with State, local, tribal, and territorial governments 
and others; and an overall process by which communities can take 
advantage of opportunities to rebuild stronger, smarter, and safer 
after a disaster.
    The NRF and the NDRF contributed to the Federal Government's 
ability to respond to and initiate recovery from the enormity of the 
devastation caused by Hurricane Sandy with a massive, multi-agency, 
multi-State coordinated response in support of State and local efforts.
    There are three primary lessons that are guiding our efforts to 
support local community rebuilding efforts.
    First, it is vitally important that both near and long-term 
recovery and rebuilding efforts start immediately following a disaster 
and that the Federal Government takes a coordinated regional approach 
to the delivery of assistance to its State and local partners. To 
ensure this happens, the Hurricane Sandy Rebuilding Task Force will 
fill this regional role, working in coordination with the Federal 
disaster recovery coordinators under the NDRF, and focusing on 
rebuilding.
    Second, this must be an all-of-nation approach to rebuilding. While 
the Federal Government has a key role to play in recovery, State, local 
and tribal governments must be key partners in this effort. Third, the 
recovery effort must include rebuilding in a more resilient fashion 
rather than simply recreating what was already there so that we are 
prepared for current and future disasters.
         the role of the hurricane sandy rebuilding task force
    Because Sandy was one of the most devastating and costly natural 
disasters in our history, the President recognized that the response 
required an additional focus on rebuilding efforts coordinated across 
Federal agencies and State, local and tribal governments in order to 
effectively address the enormous range of regional issues.
    On November 15, President Obama announced that HUD Secretary 
Donovan would provide coordination in support of our rebuilding 
efforts, and issued Executive Order 13632 on December 7, 2012, 
providing that Secretary Donovan would serve as chair of the Hurricane 
Sandy Rebuilding Task Force.
    The Secretary's responsibilities in this role occur in coordination 
with the NDRF and involve cooperating closely with FEMA and the 20 
other agencies already involved in recovery efforts. The focus of the 
task force is on coordinating Federal support as State, local and 
tribal governments identify priorities, design individual rebuilding 
plans, and over time begin implementation. The Secretary is the Federal 
Government's primary lead on engaging with States, tribes, local 
governments, the private sector, regional businesses, nonprofit, 
community and philanthropic organizations, and the public on long-term 
Hurricane Sandy rebuilding.
    Secretary Donovan has explained that the task force does not seek 
to impose a one-size-fits-all solution on localities. Instead, drawing 
on expertise across the Federal Government, it provides leadership and 
connections that actively support local visions and rebuilding efforts. 
It has five major responsibilities:
  --First, and most important, the task force coordinates with all 
        stakeholders to support cohesive rebuilding strategies and 
        develop a comprehensive regional plan within 6 months of its 
        first meeting.
  --Second, the task force works to identify and remove obstacles to 
        effective rebuilding efforts and reduce regulatory burdens.
  --Third, the task force is working to coordinate Federal recovery 
        resources and to make sure that the resources the Federal 
        Government provides are informed by local priorities.
  --Fourth, the task force will develop a plan for monitoring progress 
        in rebuilding efforts.
  --Finally, the task force provides coordination in rebuilding 
        efforts, including with respect to technical assistance and 
        capacity building tools.
    The task force officially commenced its efforts on February 5. 
Secretary Donovan and I have been in constant contact with Federal, 
State, local, and tribal officials to help identify areas where the 
task force can be particularly helpful, and we both look forward to 
working with this subcommittee and other Members of Congress on this 
important effort.
                the task force and supplemental funding
    Rebuilding must be a community-driven effort, with a community-
based vision at its heart. But supporting that vision through financial 
means is a key part of the Federal role--one that has consistently been 
provided by the Federal Government for communities experiencing 
disaster.
    On January 29, President Obama signed the Disaster Relief 
Appropriations Act of 2013. The supplemental funding bill included 
funds for FEMA and USACE projects, transportation, support for the 
Small Business Administration and its disaster loan program, Community 
Development Block Grant-Disaster Recovery (CDBG-DR), funds to be 
provided to communities, and funding for a range of other critical 
priorities.
    Federal agencies and departments have already begun the process of 
making this money available to State, local and tribal governments in 
the region. On February 4, the Department of Transportation made 
available $2 billion through the Federal Transit Administration's (FTA) 
new Emergency Relief Program to help protect, repair, reconstruct, and 
replace public transit equipment and facilities that were badly damaged 
by Hurricane Sandy. The Federal Highway Administration has also made 
over $2 billion available to rebuild roads and bridges damaged by Sandy 
and other disasters. In addition, HUD has also announced the first 
round of allocations of CDBG-DR funding, totaling $5.4 billion. This 
represents the fastest ever allocation following the signing of an 
appropriations bill.
    The task force's role is not to dictate how this funding is used--
instead, it is to find ways to leverage and maximize the impact of 
these dollars and to help communities access this funding and use it to 
support their development priorities. An example of the task force's 
efforts to date is working toward a data-sharing arrangement that will 
allow SBA and HUD to provide State, local and tribal governments with 
general information on small business disaster loan applications in 
areas impacted by Sandy.
    In addition to providing the necessary resources to continue 
ongoing response and recovery efforts, the Disaster Relief 
Appropriations Act also provides funding to help impacted communities 
effectively mitigate future risk of disaster to prevent losses of this 
magnitude from recurring.
    Science tells us that extreme weather events are likely to be more 
intense in the future, so it is vital that communities rebuild in a way 
that mitigates the risks posed under future conditions as well as 
current storms.\1\
---------------------------------------------------------------------------
    \1\ NOAA's fact sheet at http://www.nrc.noaa.gov/plans_docs/
SoS_Fact_Sheet_Hurricanes_and_Climate_FINAL_May2012.pdf: ``Studies 
available for the Atlantic basin suggest increased hurricane intensity, 
hurricane rainfall rates and the numbers of the most intense hurricanes 
over the 21st century. However, the projections for intensity and 
intense hurricane numbers in particular have relatively large 
uncertainty and further research is needed to increase understanding.''
---------------------------------------------------------------------------
    We look forward to continuing to work with this subcommittee, 
others in Congress and our Federal, State, local, and tribal partners 
to help make local rebuilding visions a reality--and to support 
communities that are rebuilding in a way that makes them stronger, more 
economically competitive and better prepared to withstand the next 
storm.
    Thank you again for the opportunity to testify today. I am happy to 
answer any questions you may have.

                     SANDY RECOVERY IMPROVEMENT ACT

    Senator Landrieu. Thank you very much.
    Let me begin, Administrator Fugate, with you, if you could 
elaborate.
    The Sandy Recovery Improvement Act, which you helped us 
through your good testimony to design, passed in January. It 
gave you some additional authorities, some of which you 
mentioned. One in particular to make awards in advance based on 
past estimates.
    I understand that you are currently right now planning on 
issuing guidance to applicants in mid-April, just about 2 
months, 1.5 months from now. Can you talk a bit about FEMA's 
collecting the guidance it needs to ensure estimates are done 
in a fair and reasonable manner? Are you tracking the savings 
that FEMA might garner from this new approach? And if no, I 
would like to ask you to consider thinking about that.
    But give us a little bit more detail, because I think this 
is really key to the recovery of how we are going to do this a 
little differently to get this recovery going more quickly.
    Mr. Fugate. Yes, Madam Chairman.
    Although the legislation passed, it will require extensive 
rulemaking to implement. And rulemaking, as you know, can take 
years. We are going to implement this under pilot programs to 
apply some of the things we had already been working on, but 
with your legislation, it now allows us to move forward.
    I want to give an example. We well know the tragedy of 
Charity Hospital, but then the tragedy of not being able to 
come to resolution and going to arbitration and delaying for 
years. When I came on board, as you well know, we had not even 
resolved charity, which meant, for that community, a hospital 
had not even begun construction to rebuild.
    Here in New York, we are talking more than nine hospitals. 
I have been in the basements of Bellevue Hospital. I have been 
in the basement of New York University. I have been at Coney 
Island.
    What you have given us is the ability to do this: bring in 
their experts and their engineers, tell us what the damages 
are, do the reviews, come up with the design, tell us what the 
repairs are, and certify them. Our goal is to have a 
professional engineer or licensed architect of that State of 
record certify those damages.
    I don't need my experts to go look at the damages if they 
are going to have a professional engineer tell me that more 
than 50 percent requires substantial improvement. Give us your 
estimate as you would design to build this, and we will provide 
initial grant dollars to do that. But once we have the finished 
design and you know what your estimates are, we want to be able 
to write a worksheet that says we will obligate the full 
amount, allowing them to go forward and build and not wait for 
reimbursements or for us to monitor each individual piece.

                         REGULATORY FLEXIBILITY

    The other advantage is, as you point out, what if they 
choose to make an alternative decision? We have penalized that 
before. The legislation eliminates that penalty.
    The other piece of this, though, that you touched on, and 
that we really want to focus on, is we don't want to rebuild it 
in such a way that we have known vulnerabilities. And there is 
a great example of this at Bellevue Hospital.
    Bellevue Hospital, after Hurricane Irene, mitigated its 
oxygen storage tanks based upon the 100-year flood risk. The 
problem with that 100-year flood risk was Hurricane Sandy 
overtopped it.
    So we know that in mitigating, we have to go beyond our 
traditional tools. And this flexibility allows us to look more 
at the function vs. the mere insurance cost value of repair or 
replacement.

                         INSURANCE SHORTCOMINGS

    Senator Landrieu. Well, I am very excited to hear that. And 
I don't know if the local officials realize what a great 
benefit this is to you all that we did not have in Hurricanes 
Katrina and Rita, and the difference that it could possibly 
make.
    So, I thank you for getting the rules done quickly. Thank 
you for initiating the pilot. And we are really going to be 
focused to make sure that this pilot is effective. And if there 
are additional authorizations that you need, let me know.
    Administrative Fugate, would you comment for 1 minute or 2 
on the shortcomings of insurance, because a lot of critics of 
what I am doing say the Federal Government has no role or a 
limited role. They want to pull back the Federal role in 
disasters, claiming that if everyone was just fully insured, 
that after a disaster, there would be nothing really for State 
or local governments to do. The private insurance market would 
step up.
    Could you explain a little bit to us why that really is not 
possible?
    Mr. Fugate. As you ask me the question, I go back and I ask 
people another question: How many people right now check their 
home mortgages and have replacement value? In most cases, your 
insurance is now only covering your exposure to your mortgage. 
And when you have owned your home for a number of years, you 
may not even have a mortgage anymore. Your insurance oftentimes 
does not cover the replacement cost for your homes.
    So we find people, when we say upside down on their 
mortgages, they are upside down on their insurance coverage. 
And they can't afford to have that kind of replacement cost.
    So oftentimes we do find that people, even if they are 
insured, are actually underinsured for the rebuilding costs.
    And then when we talk about Government, the cost for 
Government to insure--again, many of them have become self-
insured but don't maintain sufficient reserves. And again, if 
the commercial insurance was affordable and was available, I 
think it would be something that you could suggest we could do.
    But even our own flood insurance program, as designed by 
the Congress and as we operate it with a new authorization, is 
going to become more expensive, but continues to focus on 
protecting the mortgages and limited contents, not providing, 
necessarily, full replacement value. And there are limits on 
the total amount of flood insurance you can purchase.
    So, particularly in those areas that are very expensive, as 
we know here in New York, it is oftentimes not even possible to 
purchase enough insurance to cover what replacement costs you 
would have.
    Senator Landrieu. And, listen, I am not underestimating the 
importance of responsible insurance. It is a system that the 
United States uses. To my surprise, the Netherlands does not 
use it at all. The Netherlands does not have private insurance. 
Their government funds completely their flood insurance. 
Instead of people making premium--I am not suggesting this, but 
just to say that there are different models in the world--
instead of all the premiums that go to insurance companies, all 
of that money goes to the local government to build levees that 
don't fail, to build barrier islands that protect.
    Now, that is a different model. It is not one I am 
suggesting. But I do think that we have got to have a little 
bit more thought in this country, if we are going to have an 
insurance partnership with the Government, what people need to 
do a little bit better, what governments need to do a little 
bit better, because what is true, the Federal Government can't 
continue to pick up more and more and more. We are going to do 
our part, but we really have to focus on this, particularly for 
communities that are vulnerable. And frankly, I think there is 
not a community in the United States that is not vulnerable 
from something, whether it is a hurricane or a nor'easter or an 
earthquake or a fire or a flash flood. I mean, think about it.
    That is, I think, a concept that Americans have to really 
understand, that we are all at risk, particularly with the 
climate change and weather patterns changing.
    Laurel, let me ask you, please elaborate a little bit more 
on this flexible CDBG, because this was a great victory. We 
fought very hard.
    And to underscore this for the press here, in the past, the 
most flexible Federal program that we could quickly get to 
local governments was the CDBG program. The CDBG program was 
not designed to respond to disasters. It was designed to build 
communities in the future. There is a big difference in the 
urgency of both of those tasks and the intensity.
    You can take your time building for the future. You can't 
take a lot of time rebuilding immediately what needs to be 
rebuilt. So we fought very hard to get a more flexible 
program--I even wanted to call it something different but was 
rebuffed. I wanted to call it the disaster recovery grant, but 
that was a bridge too far for people. So we called it the same 
thing, but made it more flexible.
    Please tell us, for the record, how you believe that you 
can use this money, what difference does that flexibility make, 
if any?

               FLEXIBLE COMMUNITY DEVELOPMENT BLOCK GRANT

    Ms. Blatchford. Well, first of all, thank you for your 
advocacy and support. I think you are right. It is an 
enormously valuable tool.
    And based on the lessons learned from Hurricane Katrina and 
other disasters, this is a program that has basically emerged 
for HUD in the last 10 years. I think a lot of what you and 
your partners in the Congress put into the legislation codifies 
the kinds of directions we want to go and we think are best for 
flexibly responding to disaster.
    A couple things I would highlight. We--``we'' meaning HUD--
have gotten the first third of the initial $16 billion out the 
door. We have been working closely with the local communities 
as they assess their needs, in partnership with FEMA and other 
agencies. Our understanding is that they are planning to use 
that first tranche for a whole set of needs that will really 
follow on the first round, if you think of it, of Federal 
investment as well as insurance payments.
    So the idea here is that flexibility can support what might 
not be covered under FEMA's programs and the first set of caps 
that people may have already reached.
    Senator Landrieu. Which is about $30,000, right?
    Ms. Blatchford. Yes, that is correct.
    So it is designed to follow on that.
    The second two-thirds, we are working with HUD on that. And 
my guess is there will be a notice of allocations in the coming 
months. And that is also--as you know, people's assessments of 
needs change. Things develop as rebuilding plans form. So we 
will be working closely with the grantees in the region to 
understand how they want to use those longer term investments 
in things like mitigation, elevation, other kinds of innovative 
programs, not just for housing, but for small businesses and 
other entities in the region.
    So I really think it is that kind of flexible tool that 
works with, again, the Federal family of programs, but is 
designed to complement them and really supplement them.
    Senator Landrieu. We are going to get more testimony on the 
third panel, but have you gotten any mitigation requests that 
come to your mind that you would like to share with us that 
really makes some sense to you? Or is it too early for you to 
have received that information?

                           REBUILDING SMARTER

    Ms. Blatchford. So we are still working with the grantees. 
As you know, Governor Cuomo has recommended the possibility of 
buyouts. That is the kind of strategy that is allowable under 
the program in certain cases. We have not approved--to be 
clear, we have not approved this particular plan. But it is the 
kind of plan that I think, if it is done right, at the 
community level, and it is done thoughtfully and doesn't lead 
to blight or other problems, and communities really want that, 
it is the kind of longer term solution that could be really 
innovative.
    I also think there are so many things, whether it is from 
the gulf coast region or the Netherlands or other parts of the 
country, innovative technologies and other things that can be 
used to help rebuild, for example, places I have seen on the 
New Jersey shore, houses that were rebuilt and renovated most 
recently before the storm look fine. And there is no better 
demonstration to people of how those kinds of building codes 
and different materials can help. So that is the kind of thing 
we are working with the region to think about.
    Senator Landrieu. Smarter designs, better materials can 
withstand some of these storms up to 150, sometimes 200-mile-
an-hour winds. And if you are building higher, they can 
withstand the water.
    If you are going to live in a coastal area, it is a smart 
way and probably the only way to rebuild.
    Let me ask a few more questions. In the past, it was 
difficult, Ms. Blatchford, to do collective oversight of 
Federal expenditures because there was no aggregate tally 
across all the agencies. Senator Cochran and I have introduced 
legislation that requires the Federal Government to 
comprehensively track spending for catastrophic disasters 
across agencies. It is not just FEMA.
    Will your task force begin to do this? And how are the 
plans for this coming along?
    Ms. Blatchford. Yes, we will. One of the interesting things 
that is coming into play for us, are lessons learned from the 
Recovery Act. As you know, that was a stimulus program in 2009. 
Agencies like HUD learned a lot about how to track money as 
soon as it left our doors. So understanding what grantee 
performance was.

                         OVERSIGHT/TRANSPARENCY

    So we borrowed from that model and created a project 
management office. Again, as you know, the task force is a 
short-term entity. Part of what we are going to do is stand 
this up, working very closely with the Office of Management and 
Budget, which works with the chief financial officers of each 
agency that has supplemental appropriations, as well as the 
inspector general and oversight community, as well as the 
Recovery Act Transparency Board, which was put into effect in 
the Recovery Act, to kind of work as a team to understand a 
catalog of performance metrics to communicate performance and 
spending, to provide transparency.
    And as I said, I think the longer term goal will be to 
institutionalize that. We are not sure exactly where, but we 
are really charged, at this point, with standing it up, so as 
to set the tone for that kind of performance management and 
transparency from the beginning.

             SEQUESTRATION'S EFFECT ON DISASTER REBUILDING

    Senator Landrieu. Administrator Fugate, the Congress, as 
you know, provided $11.5 billion in needed FEMA funding for 
response and recovery for Hurricane Sandy and other ongoing 
disasters. People in this region may be interested to know 
there were 47 Presidential declared disasters in 2012. And I 
believe that 2011 was a record year of 14, as I remember, 
disasters of more than $1 billion, which was unprecedented and 
the first in history.
    In 2011, there were 99 Presidential declared disasters in 
total. Every State in the Nation has a pending disaster 
recovery project now open with FEMA.
    You have testified that sequestration, which is technically 
going into effect as we speak, will reduce the total amount 
available in the FEMA disaster fund to help rebuild communities 
by $1 billion. Is it true that a sequester of $1 billion could 
result in FEMA having to shut down some disaster rebuilding 
processes or other disasters as early as August? Would you 
comment about the probability or possibility of that?
    Mr. Fugate. Yes, Madam Chairman.

                        FUTURE DISASTER FUNDING

    What will happen is we won't run out of money, but we are 
going into peak hurricane season, and in the fiscal year, we 
will be in the final quarter. We will get to, potentially, a 
budget amount that will require us to look at and ensure we 
have sufficient funds to continue immediate needs funding, 
which is for the families. We don't want to take away from the 
survivors. That may mean that we go into a system where 
permanent work that has not already been started will be 
delayed until we get additional funding.
    The other part of that is part of that Disaster Relief Fund 
is the dollars we use to respond to the next disaster and deal 
with wildfires and emergencies. That also took a cut. And, 
again, the drought and the other things that took cuts to get 
ready for Hurricane Sandy will also impact our ability to 
ensure the capability to respond to not only the existing 
disasters as well as to Hurricane Sandy recovery, but future 
potential impacts.
    So, again, we are very concerned and are working to manage 
those dollars effectively. But, again, the original request was 
based upon what was anticipated for the full fiscal year, and 
the concern will be, if we draw down at a rate we project, we 
may reach a point going into the peak hurricane season where we 
would have to postpone permanent work to preserve the 
capability to respond and ensure that we are still meeting the 
survivors' needs in those programs.

                              COST SAVINGS

    Senator Landrieu. And I would just like to underscore that 
testimony, because this has been one of my very strong points I 
have tried to make to colleagues on both sides of the aisle, 
that when a community is going through a recovery, they do not 
want to see yellow lights flashing. They do not want to see red 
lights. They do not want to see stop signs. They want to see 
green lights going forward, because this is a long, hard road.
    And what happens is, if the Congress nickels and dimes 
FEMA, as it has a tendency to do--we have had to fight very 
hard against a philosophy that I do not agree with--they end up 
having FEMA, get to a level of funding that would prevent them 
from responding should a disaster happen next month.
    And so they end up having to slow down recovery all over 
the country, which (a) is not fair to survivors; (b) counter to 
local governments having to then be on the hook for some of 
these projects and small businesses on contracts; and (c) it 
has an immediate impact on the recovery of our economy, which 
is very negative.
    So while every part of the budget is sensitive to budget 
cuts, I want to underscore that, under the law, when FEMA's 
bucket gets low, the only thing they can do is stop ongoing 
recovery to anticipate and hold a reserve for disasters that 
might happen. And that is why I fight so hard for full and 
robust funding, to avoid that happening.
    And that is just worth underscoring. We hope that this will 
not happen, but sequester is a real threat, in my mind, to this 
whole effort.
    I think that I have had my questions, most of them, 
answered. I am going to check with the staff in a minute. Why 
don't you give a 1-minute close, if there is anything that I 
haven't asked, either one of you, that you would like to get on 
the record before your panel is over.
    Mr. Fugate. Madam Chairman, there are a couple things that 
were in Sandy legislation, one of which I really appreciate was 
your support for tribal recognition. We are implementing that 
as we speak.
    But to the other question you asked, which I did not answer 
fully, was cost savings with these new procedures. Yes, ma'am, 
we are very much tracking those. We think there are substantial 
reductions in FEMA's overhead in not having to have long-term 
management of projects where we are reimbursing with multiple 
changes and multiple revisions, but are able to use an estimate 
that both parties can agree to, to fully fund the project and 
ensure fiscal stewardship on our part without the burdensome 
process of managing a long-term recovery. We think there are 
substantial savings, and we are documenting those.
    We can tell you that in the debris rules you gave us, we 
have seen substantial savings when local governments are able 
to use their personnel to pick up debris and get reimbursed, 
vs. having to rely upon hiring contractors and going into 
overtime. And we have also documented that and greatly 
appreciate your support in those changes.
    Senator Landrieu. Good. Thank you.
    Ms. Blatchford.

                        REPORT TO THE PRESIDENT

    Ms. Blatchford. I just want to say thank you for having me 
here today. We haven't talked much about the timeline for the 
task force, but we are hard at work. We will be delivering our 
report to the President with all of our Federal partners in 
August, and we look forward to working with you and your staff 
to make the recommendations as effective and forward leaning as 
possible.
    Senator Landrieu. Well, I saw that in your testimony, I 
sure hope we can get that delivered before August. I know that 
the law says you have until that time, but this storm was 4 
months ago. There is a spring and summer season coming up that 
is so important for New Jersey and the coastal communities that 
rely on this tourist season. It is just imperative for us to 
really push forward to get particularly these small businesses 
back up and running along, so that this community can have as 
normal a season as possible.
    It is going to be very difficult. I mean, the gulf coast 
did not come back that next year. It took a long time. But it 
can happen, and it can be, as you said, even better and more 
resilient.
    Let me also mention, before they leave, I want to give 
credit to Senator Lieberman and Senator Collins, who led the 
Homeland Security Committee these last 10 years. Both have 
retired now--well, Senator Collins is still there, but moved on 
to another committee. Senator Lieberman has retired.
    And without their leadership, a lot of these reforms would 
not have been possible. So I want to make sure that we give 
them credit at this hearing.
    Thank you all very much. And, of course, you can submit 
other things for the record.
    As the third panel comes forward, let me thank these local 
officials who have been on the frontline for the last 4-plus 
months. It has been, I know, a very difficult task that you 
have all been facing.
    We will first hear from Mayor Joseph Mancini, who I had an 
opportunity to meet when we toured your community, Mr. Mayor, 
with I think it was with Senator Menendez and Senator 
Lautenberg, of course, who are supportive.
    Scott Mandel, city council president of Long Beach, New 
York, and Brad Gair, director of Housing Recovery Operations 
for New York City.
    So we know that there are hundreds of other local officials 
like yourselves, elected and appointed, that are struggling 
with this recovery. You represent just a small group that we 
could accommodate at this hearing.
    But as the rules of this subcommittee go, we can receive 
testimony from anyone on this subject. This record will stay 
open. Encourage your colleagues to submit their statements for 
this record, because it will be thoroughly reviewed. And we 
hope to take some of these ideas, of course, back to help you 
in every way that we can be helpful.
    So with that, Mayor, why don't we begin with you?
STATEMENT OF HON. JOSEPH H. MANCINI, MAYOR, TOWNSHIP OF 
            LONG BEACH, NEW JERSEY
    Mr. Mancini. Thank you, Senator Landrieu, for holding this 
meeting. And I want to thank you for your leadership on the 
FEMA subcommittee.
    And I also want to thank you for coming to Long Beach 
Island to see firsthand, with your knowledge from Louisiana. 
And your dad and brother being mayors, you can feel our pain. 
And I want to thank you for that.
    Long Beach Island is an 18-mile long barrier island. Long 
Beach Township is 12 out of the 18 miles. The other towns are 
Beach Haven, Ship Bottom, Surf City, Harvey Cedars, and 
Barnegat Light.
    About 12 years ago, the Congress approved our engineered 
beaches on Long Beach Island. Unfortunately, only 4 miles were 
completed, because of lack of funding.
    Behind those dunes, which are our levees, the homes behind 
those engineered dunes did not suffer any damage by wave 
velocity. Also, none of the communities on the mainland 
directly in the shadow of those dunes were damaged 
significantly. We had a lot of water, but no wave action.
    On the remaining section of the island, we had millions of 
cubic yards of sand displaced and moved around onto properties. 
It looked like a blizzard that never melted. And unfortunately, 
FEMA did not pick up any of the sand removal from personal 
residences, which is something that we should be really looking 
at, because it was $10,000 to $20,000 per residence to move 
that sand.
    We definitely need, and we have put into our legislators 
and Senators, a request for funds to finish our levee, so to 
speak, the remaining 12 miles. In meeting in Washington 
yesterday, our New Jersey Senators and our Congressmen have 
assured us they are going to work for that. And we appreciate 
FEMA's help in funding that.
    Two problems that we had during this event that I would 
like to bring to your attention. Number one, as you have just 
stated previously, it has been 4 months since the event 
occurred, and 50 percent of our people still do not know what 
their settlements are going to be--50 percent.
    Along with that, FEMA just released a preliminary flood 
elevation map, which, in our area, a 20-mile radius, has just 
added 16,000 homes to a bayside velocity zone (V zone).
    Out of those 16,000 homes, 8,000 of those homes are built 
on slabs, which cannot be raised and put on pilings. So we have 
a lot of anxiety occurring between people not knowing what 
funding they are going to be receiving from the National Flood 
Insurance Program, number one; and number two, how are they 
going to raise the homes.
    We all agree on the maps that the elevations are correct. 
We absolutely disagree with the new V zones. The new V zones, 
there is no such thing as a 3-foot mythical wave that is going 
to go through 1 mile of housing developments. It just doesn't 
work.
    So we would really like to work with FEMA on correcting 
this. Unfortunately, 2 weeks ago, we met with the New Jersey 
State deputy commissioner, Bob Martin, a member of FEMA, and 
two of their engineers, and eight of the local mayors, asking 
them how come there was no input from the local government and 
our local engineers.
    They would not respond. They told us that we had an 
opportunity to appeal it, if we could bring our data. I 
requested their data, and we still have not seen it.
    So, Senator, this is a major problem.
    Senator Landrieu. We will get it for you. Don't worry.
    Mr. Mancini. Once again, I want to reiterate, the 
elevations, we all agree on. But I would like to say, on Long 
Beach Island, the 1984 base flood elevations worked. We had 
nothing built after that tide that was compromised.

                           PREPARED STATEMENT

    The last thing is Long Beach Island is moving forward. By 
Memorial Day, we will be 95-percent open, business-wise. On 
June 15, 2013, we are inviting you and all the other first 
responders back to the island for a thank you fest. And I would 
just like to inform you that we have 20 Louisiana State 
troopers coming back, so thank you.
    [The statement follows:]
              Prepared Statement of Hon. Joseph H. Mancini
    I would like to thank Chairwoman Mary Landrieu and Senator Frank 
Lautenberg for holding this hearing and for your leadership in helping 
to secure the funding needed for us to clean up from the worst natural 
disaster New Jersey has ever seen and to start the process of 
rebuilding. I would also like to thank the chairwoman for taking the 
time to come to Long Beach Island to see firsthand the devastation to 
our homes and businesses. Your experience with rebuilding after a major 
storm and your guidance on the best practices for communities like mine 
is invaluable. Senator Lautenberg, you have always been a champion for 
our State and I knew that with you in Washington fighting for the 
funding we so desperately needed we would certainly win in the end. 
Thank you for all you have done for the State and will continue to do 
as you finish your term.
    Long Beach Township has a total of 8,000 homes of which 3,000 homes 
were breached by water and another 1,000 homes suffered gas leaks. We 
had homes knocked off their foundations. Cars, boats, refrigerators, 
and other personal property were swept into other homes and into the 
streets. With all that, we were approximately 3 feet to 4 feet deep in 
sand. We had no water, power or sewer for 2 months in certain areas. 
With help from the New Jersey State Police, the Louisiana State Police, 
the National Guard, and our own law enforcement, we were able to 
maintain search and rescue, security and patrol operations while we 
rebuilt our dunes and beaches to ward off the next nor'easter which 
followed just days after Hurricane Sandy. Due to this cooperative 
operation, we were able to allow residents to get back onto the island 
for a brief time to grab necessary salvageable items and do a quick 
assessment of the damage a little over a week after the storm. What 
many residents found was catastrophic with personal effects completely 
washed away or damaged beyond repair by the water and sand. Sadly, this 
story was repeated up and down the New Jersey coast with many people 
still displaced, unable to return to their homes.
    There is a solution to minimize the magnitude of the destruction in 
any future storm and that is the Army Corps engineered dune project. On 
Long Beach Island, the 18-mile stretch of land that includes my 
township, the sand dunes and beaches became our levees and the damage 
was significantly less in the parts of the island that had beaches 
widened and dunes constructed as part of the ongoing Army Corps of 
Engineers storm protection project. This Corps project was authorized 
in 2000 and was determined to be technically feasible, economically 
justified and environmentally acceptable and with the help of Senator 
Lautenberg and his colleagues, we have been able to secure funding to 
complete 4.4 miles of the island including the towns of Harvey Cedars, 
Surf City and a portion of Brant Beach. Those towns received very 
minimal damage to their homes, businesses and infrastructure proving 
that the Corps storm protection project worked. It's clear that the 
funding was well spent because the high level of protection from the 
unprecedented storm surge saved millions of dollars in property and 
infrastructure reconstruction. We know that these efforts are 
successful so now, 13 years after being authorized, it is time to 
finally complete the remaining 13.5 miles of the project to ensure the 
long-term sustainability of the shore area. I look forward to working 
with Senator Lautenberg and the entire New Jersey congressional 
delegation to provide that protection to our community.
    In the meantime, residents are beginning to rebuild. I would like 
to thank FEMA for their work in ensuring the public is appropriately 
informed of all deadlines and for providing informative presentations 
for the residents and local governments. In addition, we appreciate 
that FEMA has worked closely with the township's emergency management 
providing quick answers when asked about making purchases to move 
forward during the storm and keeping us informed on what expenses can 
be reimbursed. That being said, we do have concerns with the flood maps 
recently released by FEMA. We all want to work together on common sense 
solutions to make sure the maps provide for adequate levels of 
protection. However, our concern is not about the additional heights 
added to the base flood elevation (BFE) but to newly designated bayside 
velocity zones (V zones). None of the homes on the Island that were 
built according to the 1984 BFEs were flooded and the additional 
heights have been accepted. The newly established V zones put 16,000 
homes in a 20-mile diameter in a new V zone. 8,000 of these homes are 
built on slabs and cannot be raised. According to FEMA and its 
engineers, this was based on the assumption of a 3-foot wave that would 
potentially travel through 2 miles of homes and break apart the 
existing homes. According to FEMA, this data was obtained by doing a 
flyover at 10,000 feet which I don't believe can provide an accurate 
picture for common sense map adjustments. In addition, FEMA's 
calculations did not take into account the new engineered dune project 
which would mitigate any wave action. FEMA informed us that this was 
not taken into account because it did not exist last summer when the 
flood maps were prepared. This miscalculation of adding a V zone to an 
area that does not have wave action is placing an incredible and 
unnecessary burden on the residents. I hope to continue to work with 
FEMA, the State and this subcommittee to find an effective alternative 
that does not put undue hardship on homeowners.
    There will be challenges as we rebuild but Long Beach Township 
continues to move forward. All streets are clear and utilities are 
working at the present time and we will have 95 percent of our 
businesses back by Memorial Day.
    In some ways it's hard to believe the storm was only 4 months ago 
because so many have worked hard to restore the vital infrastructure 
that allows us to get back to business as usual but in many ways, 
particularly when dealing with homeowners or businesses who lost 
everything and are struggling to rebuild their lives, it's like the 
storm happened yesterday.
    I want to thank you again for holding this hearing and for your 
continued attention to the needs of those impacted by Hurricane Sandy. 
I look forward to working with the subcommittee and FEMA to provide the 
highest level of assistance to the many people who are lucky enough to 
call the beautiful Jersey shore home.

    Senator Landrieu. Thank you, Mr. Mayor.
    Mr. Mandel.
STATEMENT OF HON. SCOTT J. MANDEL, CITY COUNCIL 
            PRESIDENT, LONG BEACH, NEW YORK
    Mr. Mandel. First, Madam Chairman, thank you for allowing 
us this opportunity and venue to share our experiences with 
Superstorm Sandy.
    I also want to take this opportunity to thank New York 
State Governor Cuomo, the Department of Homeland Security, the 
Office of Emergency Management, Nassau County, as well as the 
Nassau County Executive Ed Mangano, Assemblyman Weisenberg, 
Senator Skelos, Congressman King, Congresswoman McCarthy, 
Senator Schumer, and, of course, Senator Gillibrand.
    And dovetailing to Senator Gillibrand's testimony earlier 
today, we share those concerns and frustrations.
    I am honored to have this opportunity to participate on 
today's panel on behalf of Long Beach, New York, the other Long 
Beach. And to that end, also talk a little bit about other Long 
Island areas that were affected as coastal communities, 
regarding storm preparedness, response, recovery, and 
mitigation.
    As I mentioned, Sandy was a one-of-a-kind superstorm. Long 
Beach is a barrier island sandwiched between the Atlantic Ocean 
on the southern border and the bays on the northern border.
    Going into the storm, and before the storm, the city made 
extensive operation efforts several days prior. We provided 
advance notice to our residents. We evacuated. We provided 
means for evacuation. We used Robo calls, text, emails, radio, 
television, newspaper, Web site, and social media. We created 
temporary barriers on the beach and made sure all hands were on 
deck to be of assistance.
    And then the storm hit. The brunt of the storm was between 
5 p.m. and 9 p.m. And, literally, the ocean met the bay.
    Our recovery efforts began immediately, and we were 
fortunate to secure assistance from all levels of government.
    Unfortunately, Superstorm Sandy brought with it many 
obstacles, including a complete cutoff of all communication. 
Unfortunately, in a world where we rely on technology, when 
that is taken away from us, we have to scramble to find other 
means to reach our residents. We relied on flyers, bullhorns, 
large signs, and even door-to-door reaching out efforts.
    In that period of time, we were still a new administration, 
only 10 months into the administration when the storm hit. And 
we came into office facing a $10 million deficit.
    Thankfully, all of our city personnel stepped up quickly 
and rose to the occasion. Without the heroic efforts of our 
city personnel and our elected officials, our city would not 
have stood.
    Our city consists of 35,000 residents. It is a unique 
community.

                           DAMAGED FACILITIES

    Some of the things that were compromised by the storm: Our 
sewer facility was severely damaged; we had no sewer system. 
Our water treatment facility was severely damaged. For 
approximately 10 days, there was no drinking water, no water to 
shower in, no sanitary water. Our recreation center was 
compromised. Our library is still closed. Our schools were 
closed, some of which still remain closed.
    Miles of street were covered with sand and debris from both 
the bay and the ocean, seaweed and other sea items.
    And just as a symbol of how traumatic this was, we have a 
2.2-mile boardwalk that is the heart of our city. Portions of 
that, some of to 14 feet with railings still attached, were 
found six blocks north of the boardwalk where it had ripped off 
of the boardwalk foundation and floated, literally, up to the 
center of our town.
    Our businesses have been severely stressed. Residents are 
terrorized. Some even haven't been able to return.
    Long Beach is a summer community, but we have residents who 
live there year-round. Our neighbors are also our business 
owners, our local community members. Without the security that 
we are able to rebuild safer, smarter and stronger, and knowing 
that the financial backing is there to do it, we don't know if 
we would be able to come back from Superstorm Sandy.
    We have mitigation needs that range from raising homes to 
allowing us to rebuild our boardwalk in a way that would 
prepare us to never have to have, unfortunately, these type of 
experiences again. And we also have a loss of revenue for our 
businesses and loss of jobs for residents.

                           PREPARED STATEMENT

    So again, I thank you for this opportunity, and I 
appreciate the opportunity to share our unfortunate experiences 
with you.
    [The statement follows:]
               Prepared Statement of Hon. Scott J. Mandel
    I'm honored to have this opportunity to participate in today's 
panel on behalf of Long Beach and other affected coastal communities 
concerning storm preparedness, response, recovery, and mitigation.
    Thanks all around to New York State, Department of Homeland 
Security, Office of Emergency Management, Nassau County, as well as 
Nassau County Executive Ed Mangano, Assemblyman Weisenberg, State 
Senator Skelos, Congressman King, Congresswoman McCarthy, Senator 
Gillibrand, and of course, Senator Schumer.
    So many visits to us met with real immediate aid and assistance.
    Sandy was a one-of-a-kind Super Storm. Thorough preparation efforts 
began several days prior to the storm. We provided advanced notice to 
our residents to evacuate (robocalls, texts, emails, radio, television, 
newspapers, Web site, and social media). The ocean met the bay, 
resulting in catastrophic flooding. Our recovery effort began 
immediately, securing assistance from all levels of government.
    Sandy brought about many obstacles.
    There was a complete communications cutoff. In a world where so 
many rely so much on their cell phone, TV, and computer for 
communication, we had to resort to extremely alternate forms of 
communication (e.g., flyers, bullhorns, large signs).
    We were still a ``new'' administration (together only 10 months 
prior to the storm). City personnel united quickly and all stepped up. 
Without the heroic efforts of our city personnel, our city would not be 
standing.
    Long Beach is a unique community. We are the only city in New York 
State located entirely on a barrier island. Our emergency response was 
successful--good coordination under unified Long Beach command, a 
disciplined battle rhythm, and marshaling tremendous resources and 
assets. And now, as we address recovery, we have identified six 
recommendations for this subcommittee to assist Long Beach and other 
affected communities. These recommendations address our long-term 
needs, mitigation, and preparation for future storms.
                            recommendations
    I have the following three recommendations.
Establishing the FEMA Match
    This is especially critical right now.
    We are calling on the Federal Emergency Management Agency (FEMA) to 
provide at least 90 percent reimbursement as opposed to the standard 75 
percent. This has been done during other major storms--in fact, 
according to a Congressional Research Service report (FEMA Disaster 
Cost-Shares: Evolution and Analysis) FEMA has provided reimbursements 
over the minimum 75 percent for 222 events in 24 years (from 1985 to 
2009).
    If we receive a combined 87.5 percent reimbursement from the 
government, the remaining 12.5 percent of repair costs could do 
catastrophic financial damage to the city. Our annual budget is 
approximately $87 million, and we are estimating damages in the 
multiple hundreds of millions. Being on the hook for the additional 
12.5 percent, which would equate to tens of millions of dollars, is not 
something we can afford. By comparison, we only estimated $2 million in 
damages due to Irene in 2011--12.5 percent in a storm of that magnitude 
is something that was manageable; Sandy is not.
    While, we are still hopeful for a 100-percent reimbursement between 
Federal and State government, we have established a City of Long Beach 
Relief fund to help rebuild stronger, smarter, and safer. To date, we 
have received approximately $360,000. All donations will be allocated 
to specific projects (e.g., boardwalk, rec center, senior center, 
parks) via city council resolution.
Focus on Mitigation, Protecting and Hardening Critical Infrastructure
    We must protect our barrier islands if we want to protect the south 
shore of Long Island. Aging infrastructure needs to be addressed as we 
build a smarter, stronger and safer Long Beach. One of the city of Long 
Beach's major issues before, during, and after the storm is the aging 
infrastructure of the city. The sewer plant went down. The water plant 
went down. Essential city buildings sustained substantial damage. Up 
and running now in makeshift and masses. We need a long-term real fix, 
hardening.
Cutting Through the Red Tape
    It is imperative that there is a quick pass through of FEMA funds 
to those who are most in need. We cannot have red tape holding up the 
process--there is simply no time. Senator Schumer and Governor Cuomo 
set a fantastic precedent for this.
    Community Development Block Grant and Economic Development Funds 
will assist in our rebuild--flexible and necessary for business and 
city assets. Our businesses need help to be up and running and 
residents need expedited funds to get back on their feet. We need to 
have a successful summer season. The beach and boardwalk are synonymous 
with our city, and we absolutely must generate revenue during the 
summer months. It is our hope that we will be able to inject adrenaline 
into our local economy in June, July and August. Coordinated planning 
and emergency training among government entities is essential.
    Our city administration is one of the only to have a plan ready to 
go to provide immediate assistance to homeowners and businesses. Here 
is a brief overview of some of the assistance programs that our 
residents sorely need, and they need it now. Our homeowners need 
assistance with raising homes, demolition, mitigation, and mold 
remediation. Our businesses need direct storm damage grants, business 
retention/loss of revenue grants, and business startup grants.
                            damage and costs
    I have submitted supplemental materials, which includes a detailed 
spreadsheet that was completed shortly after the storm hit, it itemizes 
our infrastructure funding needs and estimates the total cost at just 
under $336 million. Our water and sewer plants, our roads, our beaches, 
our vehicles, our boardwalk, our recreation center, and many other city 
facilities all sustained substantial damage.
    [The referenced supplemental materials were not available at press 
time.]
    There is also a spreadsheet in my supplemental materials that 
breaks down the nearly $292 million request we made to New York State 
for community development block grant funding. The plan includes 
programs to raise homes, perform mold remediation, provide small 
business assistance, rebuild infrastructure, and strength the city's 
emergency response.
                          rebuilding approach
    Our first steps were naturally to restore critical infrastructure 
and services (e.g., water, sewer, power). Once those facilities 
returned, our focus shifted to essential quality of life services and 
issues such as debris removal and city facilities. We have initiated a 
thorough and thoughtful process every step of the way, based on the 
``recovery support functions model.'' One major project we are 
currently in the midst of working on is our boardwalk reconstruction. 
88 percent of our residents have said that they're priority is to 
rebuild the boardwalk stronger, and that is exactly what we are going 
to do.
                               currently
    The city has been actively assisting residents to the best of our 
ability. We have worked together with various entities to establish a 
disaster recovery center that has become a one-stop-shop for our 
residents in regards to all of their disasters needs.
    The city has addressed many of the building and zoning issues 
brought forward from this storm. We have reduced red tape in our 
building department permit process. Various zoning changes have made it 
easier for residents to mitigate for future storms and to assist them 
in complying with FEMA standards.
    We have begun dialogues with the Army Corps of Engineers as well as 
other stakeholders to rebuild our beach in such a way to protect future 
storms. Temporary sand barriers have been built on the beach to protect 
against the rising winter tides and have been successful thus far. 
These barriers will not withstand a large storm. We must mitigate and 
protect our city for the future.
                      federal fund appropriations
    To date, we have only received $24 million which has been fully 
allocated for debris removal costs. This was a helpful start, but we 
still require significantly more money.
                                closing
    We were prepared for a hurricane, but Sandy was beyond 
imagination--330-year storm. We sought and received help at every level 
but we are still in dire need of assistance. With help from all levels 
of government, Long Beach will rebuild stronger, smarter, and safer. 
Thank you again.

    Senator Landrieu. Thank you. I am going to have some 
questions for you about your budgets and how you all have 
managed to keep your operations going with the $10 million 
deficit and with the impact to your tax base. So I will come 
back to that.
    Mr. Gair.
STATEMENT OF BRAD GAIR, DIRECTOR OF HOUSING RECOVERY 
            OPERATIONS, NEW YORK CITY, NEW YORK
    Mr. Gair. Good morning, Madam Chairman. My name is Brad 
Gair. I am the director of Mayor Bloomberg's Office of Housing 
Recovery Operations. Thank you for allowing me the opportunity 
to testify on our efforts to find and rebuild permanent, 
sustainable housing for displaced New York City residents in 
aftermath of Hurricane Sandy.
    According to our estimates, Hurricane Sandy impacted as 
many as 60,000 housing units in New York City. And, of course, 
many thousands more were temporarily displaced from their homes 
due to power outages and service disruptions.
    We have more than 800 buildings representing 900 units that 
were destroyed or made structurally unsound; another 1,700 
buildings representing 19,000 units that sustained major 
damage; and another 16,000 buildings representing 40,000 units 
that sustained less severe damage; plus 32 public housing 
developments, which sustained major damage to building systems; 
and there were 241 first-floor residential units that sustained 
damage at facilities.
    We estimate the total cost to rebuild or repair the damaged 
housing in New York City will be approximately $3.2 billion. Of 
that, about $1.5 billion will be covered by existing or 
identified public and private resources, while the balance 
will, hopefully, be covered by the HUD CDBG funds allocated to 
New York City.
    Today, I would like to specifically address the challenges 
and opportunities in post-disaster housing recovery in the 
context of Hurricane Sandy. There are five particular issues 
that I will just go through briefly.
    First, the best temporary solution is a permanent one. 
FEMA's temporary housing program continues to rely on options 
that are expensive, slow to implement, not well suited to an 
urban environment, or all of the above. Cruise ships, mobile 
homes, converted shipping containers and other similar methods 
may cost tens of thousands of dollars per family just to 
implement and are all simply throwaway options that contribute 
nothing to a permanent solution.
    On this disaster, New York City, in cooperation with FEMA, 
devised and implemented a pilot program that FEMA calls STEP 
and we call Rapid Repairs. In less than 90 days, New York City 
Rapid Repairs has restored heat, hot water, and electricity for 
nearly 20,000 residential units, and allowed many thousands of 
New Yorkers to return to their homes more quickly than 
otherwise would have been possible.

                       EXPEDITED REPAIRS PROGRAM

    One of our key takeaways from Hurricane Sandy is that FEMA 
should institutionalize an expedited repairs program that is 
ready to go and easy to turn on in any disaster. Doing so will 
make every $1 spent count as a true investment in recovery.
    And on the record, I would like to recognize our Federal 
coordinating officer, Mike Byrne, who is in the audience, who 
was instrumental in getting Rapid Repairs rapidly approved. So, 
many thanks.
    Senator Landrieu. Thank you, Mr. Byrne.
    Mr. Gair. The second item, in general, the Federal post-
disaster housing recovery approach simply does not meet the 
needs of many disaster survivors. We are 7-years-plus now after 
Hurricane Katrina, and we still have programmatic weaknesses in 
our large-scale housing disaster programs, and we still need to 
work on a comprehensive, viable strategy.
    The current National Disaster Housing Strategy is mostly a 
compilation of basic principles, best practices, and 
rudimentary guidance. It still needs a strategic framework and 
operational guidance necessary for actual implementation in a 
disaster like Hurricane Sandy.
    Furthermore, FEMA's basic housing recovery programs remain 
hard to understand for many key stakeholders and are not 
specifically designed to naturally progress to permanent 
rehousing solutions.
    For example, the individual assistance cap of $31,900 per 
household often forces our families to choose between fixing 
their homes, replacing their belongings, renting an apartment, 
and even paying for funerals. It is really difficult to have to 
hear FEMA tell hardworking families in tough economic times 
that the Federal Government is not here to make you whole when 
whole for so many right now means just getting by.
    Similarly, temporary housing solutions from FEMA and HUD, 
including direct housing, direct leasing, and the disaster 
housing assistance program, need to come online more quickly, 
have better defined activation thresholds, and have 
programmatic parameters and details already in place.
    Most importantly, it would be extraordinarily beneficial to 
have a Federal permanent housing reconstruction program that 
builds upon lessons learned and best practices already in place 
and ready to go in the immediate aftermath of disasters. It 
would have a variety of options that we could customize to our 
own specific needs.

               COMMUNITY DEVELOPMENT BLOCK GRANT PROGRAM

    The CDBG program provides tremendous flexibility, as you 
know. We would like to take advantage of those, but having 
something already in place, so we don't have to re-create the 
road home every time, would be a huge benefit for us, so we 
don't face that gap that we are having right now where we are 
waiting for supplemental appropriations and then we have to 
design a new CDBG action plan from scratch.
    Finally, we need to promote and provide routine 
programmatic support for building back better, safer, and more 
resilient. The FEMA Hazard Mitigation Grant Program is 
competitive, and so it leaves a lot of people out who need help 
in building their homes back in a more resilient way.
    Third, we would like to see more effort and emphasis to 
promote regional cooperation on housing. There are lots of 
opportunities there. We have people from multiple jurisdictions 
here today. We really don't have a strategy in place yet for 
cooperating on post-disaster housing even across the thinnest 
of jurisdictional boundaries.
    Fourth, our experience should teach us that mold is always 
an important public issue in the aftermath of a natural 
disaster. While health experts may not see mold as an immediate 
threat to public health, homeowners and residents have a 
visceral reaction to seeing the mold form on their walls, 
especially after having gone through the trauma of a flood or 
hurricane. We know that homeowners can use their FEMA 
assistance to address mold, but the costs are significant. And 
there is no distinct Federal program to help with mold, which 
leaves State and local governments trying to figure out the 
programs on their own.
    I will just point out, on this disaster, that we put 
together a $16 million philanthropically funded collaboration 
between New York City, the Mayor's Fund to Advance New York 
City, the Robin Hood Foundation, and American Red Cross, that 
will address mold in about 2,000 homes, so that is to start. 
But we really need a permanent program for that as well.
    Fifth and finally, we are just continuing to work to try to 
better integrate Government, private sector, and voluntary 
agencies. We need to find better ways to do that. The whole-of-
community approach is the right way to go. We need some more 
programmatic support to help us institutionalize that, so we 
can turn it on very quickly and do it more effectively on every 
disaster.
    In summation, let me be clear that I am not intending to be 
at all critical of FEMA, HUD, or any Federal agency. We have 
had a great partnership on this disaster and have already 
accomplished some truly amazing feats of response and recovery 
together.

                           PREPARED STATEMENT

    The Federal agencies are doing the best they can with the 
programs and tools they have been given. But the housing 
recovery legacy of Hurricane Katrina and the experience of 
every disaster from then through Hurricane Sandy should prove 
to us that we can do a lot better with fewer, clearer, and more 
efficient programs.
    Thank you very much.
    [The statement follows:]
                    Prepared Statement of Brad Gair
    Good afternoon Chairwoman Landrieu, members of the subcommittee on 
Homeland Security and distinguished guests.
    I am Brad Gair, director of the Mayor Bloomberg's Office of Housing 
Recovery Operations. Thank you for allowing me the opportunity to 
testify on our efforts to rebuild and find permanent, stable housing 
for displaced New York City residents in the aftermath of Hurricane 
Sandy.
    By way of introduction, I will give you a quick professional bio: I 
have over 20 years of emergency management experience, working around 
the globe and working right here in the city. I believe that this past 
experience will equip me to help New Yorkers now. While serving at the 
Federal Emergency Management Agency (FEMA), I was the Presidentially 
appointed Federal coordinating officer for numerous major disasters, 
was appointed the Federal recovery officer after the terrorist attacks 
of September 11th with full authority for an $8.8 billion budget, and 
worked in key post-disaster housing leadership positions on several 
major disasters including Hurricane Floyd, the 2004 Florida hurricanes, 
and Hurricane Katrina. In addition, I served 3 years in New York City 
government as the deputy commissioner for operations at the Office of 
Emergency Management.
    I have learned through all of my experiences that disaster recovery 
is an extremely difficult process, with a steep learning curve. And 
every recovery is a failure, to some extent, because what many people 
whose lives have been affected by a disaster really want is to have 
things back the way they were. And no one can give them that. This is 
especially true for a housing disaster like the one we now face.
    According to our estimates, Hurricane Sandy impacted as many as 
60,000 housing units in New York City, and many thousands more New 
Yorkers were temporarily displaced from their homes due to power 
outages or other service interruptions. Over 800 buildings--
representing 900 housing units--were destroyed or made structurally 
unsound by the storm. Another 1,700, buildings (19,000 units) sustained 
major damage and 16,000 buildings (40,000 units) sustained less severe 
damage, while 32 public housing developments sustained major damage to 
building systems, including 241 residential units which sustained 
direct damage.
    We estimate the total cost to rebuild or repair these damage 
housing units will be $3.2 billion. Of that, about $1.5 billion is 
covered by existing or identified public and private funding resources, 
with the balance to be hopefully covered by Community Development Block 
Grants to New York City by the Department of Housing and Urban 
Development (HUD).
             general housing recovery operations activities
    Mayor Bloomberg recognized that traditional housing assistance 
programs and the normal structures and processes would not be 
sufficient to meet the incredible housing demands in the aftermath of 
Sandy, and thus he created and asked me to lead the Office of Housing 
Recovery Operations or HRO. And--as all New Yorkers know--this city 
brings unique circumstances and opportunities that are not faced by 
other communities recovering from disasters.
    In the simplest terms, the mission of the HRO is to ensure that 
residents owning or renting homes before Sandy are returned to homes 
after Sandy--homes that are permanent, safe and sustainable. The office 
is a division of the mayor's office, and coordinates closely with city, 
State and Federal agencies including FEMA.
                         federal program issues
    Today I would like to address the challenges and opportunities in 
post-disaster housing recovery in the context of Hurricane Sandy. 
Specifically, I would like to address five issues and offer a few basic 
recommendations for improvement:
  --The best temporary solution is a permanent one. FEMA's temporary 
        housing program continues to rely on options that are 
        expensive, slow to implement, not well-suited to an urban 
        environment, or all of the above. Cruise ships, mobile homes, 
        converted shipping containers, and similar methods may cost 
        many tens of thousands of dollars per family to implement and 
        are all simply throw away options that contribute nothing to a 
        permanent solution. On this disaster, New York City in 
        cooperation with FEMA devised and implemented a pilot program 
        that FEMA calls STEP (Sheltering and Temporary Essential Power) 
        and in New York City we call Rapid Repairs. In fewer than 90 
        days, NYC Rapid Repairs has restored heat, hot water and 
        electricity for nearly 20,000 residential units, and allowed 
        many thousands of New Yorkers to return to their homes more 
        quickly than would have otherwise been possible. One of our key 
        takeaways from Hurricane Sandy is that FEMA should 
        institutionalize an Expedited Repairs program that is ready to 
        go and easy to turn on as needed in any disaster. Doing so will 
        make every dollar spent count as a true investment in recovery.
  --In general, the Federal post-disaster housing recovery approach 
        simply does meet the needs for many disaster survivors. More 
        than 7 years after Hurricane Katrina revealed substantive 
        programmatic weaknesses for a large-scale housing disaster; 
        this Nation still needs to work on a comprehensive, viable 
        strategy. The current National Disaster Housing Strategy is 
        mostly a compilation of basic principles, best practices, and 
        rudimentary guidance; however, it needs the strategic framework 
        and operational substance necessary for actual implementation 
        in the aftermath of any major disaster by the Federal 
        Government, the States, tribal governments, counties, and 
        cities.
    Furthermore, FEMA's basic housing recovery programs remain hard to 
        understand for many key stakeholders and are not specifically 
        designed to naturally progress to permanent re-housing 
        solutions. For example, the Individual Assistance cap of 
        $31,900 per household often forces our families to choose 
        between fixing their homes, replacing their belongings, renting 
        an apartment, and even paying for funerals. It is really 
        difficult to hear FEMA have to tell hard-working families in 
        tough economic times that the Federal Government is not here to 
        make disaster survivors whole--when whole for so many means 
        just getting by.
    Similarly, temporary housing solutions provided by FEMA and HUD--
        including direct housing, direct leasing, and the Disaster 
        Housing Assistance Program (DHAP)--need to come online more 
        quickly, have better defined activation thresholds, and have 
        programmatic parameters and details already in place.
    Most importantly, it would be extraordinarily beneficial to have a 
        Federal Permanent Housing Reconstruction program built upon 
        lessons learned and best practices already in place and ready 
        to go in the immediate aftermath of a disaster, with a variety 
        of optional components that local governments can adapt to 
        their specific needs. While we appreciate the flexibility to 
        design programs customized to the disaster and the locality, 
        not having to wait for supplemental appropriations with special 
        allocations of Community Development Block Grant funds could 
        accelerate recovery and avoid the gaps in progress we are now 
        experiencing while developing a new program and HUD CDBG Action 
        Plan from scratch.
    Finally, we need to promote and provide routine programmatic 
        funding support for building back better, safer and more 
        resilient. FEMA's Hazard Mitigation Grant Program requires 
        localities to compete for funds to rebuild stronger and other 
        similar programs may incentivize this behavior, but we will 
        only truly start to get ahead of the growing frequency and 
        power of natural disasters when we begin requiring resilience 
        measures and pay for them routinely as a part of every recovery 
        process.
  --More effort and emphasis needs to be given to promoting regional 
        cooperation on housing recovery in the aftermath of 
        catastrophic disasters. While FEMA's Regional Catastrophic 
        Grant Program is designed for this purpose, it is not clear yet 
        that any major metropolitan area has completed the admittedly 
        daunting task of devising a comprehensive post-disaster housing 
        plan. Our post-disaster response would be faster and more 
        efficient if all levels of government found an enhanced 
        mechanism for coordinating housing recovery efforts across all 
        jurisdictional lines. For example, coordinating housing efforts 
        between States could not only expand available temporary 
        housing options, but also help re-house displaced residents 
        more quickly.
  --Our experiences should teach us that mold always is an important 
        public issue in the aftermath of a natural disaster. While 
        health experts may not see mold as an immediate threat to 
        public health, homeowners and residents have a visceral 
        reaction to seeing the dark spores form on their walls, 
        especially after having gone through the trauma of a flood or 
        hurricane. Homeowners can use FEMA Individual Assistance to 
        address mold, but costs can be significant, and there is no 
        distinct Federal funding program available for mold 
        remediation. Thus, local governments must scramble to address 
        this issue utilizing limited local funding or with creative 
        public-private partnerships--such as our $16 million 
        philanthropically funded collaboration with the Mayor's Fund to 
        Advance New York City, the Robin Hood Foundation and the 
        American Red Cross. Most often, local governments must rely on 
        funding from Community Development Block Grants or other post-
        disaster assistance to address mold, but that takes months to 
        reach the affected residents--and by then even more mold has 
        grown in even more homes. Therefore, it would be extremely 
        important for FEMA to be able to make mold remediation a 
        standard post-disaster program or agree to reimburse local 
        governments for performing mold remediation in private homes, 
        so this issue can be addressed quickly and effectively and more 
        resources could be dedicated to the bigger challengers of long-
        term housing.
  --We are still struggling to successfully coordinate the great work 
        of voluntary agencies and the private sector with government 
        recovery efforts. Perhaps this would work best when government 
        takes the lead to fully integrate these various entities. For 
        instance, in this disaster, my office is in the process of 
        creating a nonprofit repairs consortium, utilizing private 
        funds, in which a lead nonprofit organization with experience 
        in homebuilding will select and oversee a set of nonprofits to 
        scale repair work and serve more homes. This consortium will 
        coordinate voluntary efforts to ensure repairs to a targeted 
        group of homes; streamline interaction between organizations; 
        leverage city programs and use private dollars to repair homes 
        in advance of the launch of the public sector CDBG program. 
        This approach is entirely consistent with FEMA's ``whole of 
        community'' philosophy.
    In summation, let me be clear that I am not intending to be at all 
critical of FEMA, HUD or any other Federal agency. We have had a great 
partnership on this disaster and have already accomplished some truly 
amazing feats of response and recovery together. The Federal agencies 
are doing the best that they can with the programs and tools that they 
have been given, but the housing recovery legacy of Hurricane Katrina 
and the experiences of every disaster from then through Hurricane Sandy 
should prove to us that we can do a lot better with fewer, clearer and 
more efficient programs which would enable families to get back into 
better, safer homes faster and more easily.

    Senator Landrieu. Thank you very much, all three of you, 
for that excellent testimony.
    And, particularly, Mr. Gair, with your focus on housing, it 
has been one of the focuses that I have tried to bring, and I 
could not agree with you more that, while we have made some 
incremental progress, there is a long way to go in having 
America and our States and local governments come together on a 
smarter, more efficient, more permanent housing solution in the 
aftermath of catastrophic disasters.
    Housing is not a luxury; it is a requirement. Second homes, 
you could argue. But not primary homes, shelter is an 
absolutely fundamental part of any community. And we do not 
have the Federal programs yet, although we have made great 
improvements since Hurricane Katrina.
    But I love your throwaway housing model. We should be 
spending that money in every way for something that is 
permanent and better. And also think about the differences 
between rural areas. I mean, the Joplin, Missouri, response to 
housing is a lot different than the Newark, New Jersey, or New 
York, New York, response, because the communities are 
completely different. And having a one-size-fits-all model, it 
just is not smart, and it does not work.
    So I think your analogy to a toolbox is something that I 
have used or tried to use in explaining to the Congress that we 
may have one toolbox, but there are different tools available 
already sharpened and ready to go to work.
    And when we opened that toolbox in Hurricane Katrina, there 
were very few tools. The ones that were there were dull and not 
appropriate to the job that we had to do.
    And so I think that is a good analogy. And if you can 
continue to stay on that housing piece, we will work with you 
and try to get some additional testimony to help.
    Now, I do want to ask you, and then I am going to come back 
to Mayor Mancini, in your thinking about how not to have throw 
away housing programs, could you elaborate a little bit about 
what role you see the State of New York playing, what role you 
see the City of New York playing, and what, again, the private 
sector or the philanthropic community could play in this 
effort?
    Mr. Gair. Absolutely. Thank you very much, Senator. I 
appreciate your comments.
    And having been a part of FEMA at the time and worked post-
disaster housing after Hurricane Katrina, I do see the 
difference. But there is quite a long ways to go.
    I think that what we saw in Hurricane Katrina and 
subsequently was spending really, at times, hundreds of 
thousands of dollars per family on developing sites and putting 
in trailers and mobile homes. And for that amount of money, we 
could create permanent solutions for people without going 
through a lot of that.
    So we saw in this model of Rapid Repairs, which was really 
a great joint effort between FEMA and the State and New York 
City to get online very quickly, if we had that in place in 
advance and didn't just have to limit it to the very temporary 
pieces--hot water, electricity, and heat, which were essential. 
But we finished that very quickly, and then we had a gap.
    So if we were able to have the program continue to do 
floors and the sheet rock and the cabinets, not only would we 
have gotten people back in their homes more quickly, their 
housing recoveries would now be complete or virtually complete.

                            LAPSE IN FUNDING

    Instead, now we have this pause between now and probably 60 
days from now when we get our action plan done and can start 
with the CDBG funds.
    So I think that is where we really need the State and 
Federal Government to help us with a program to allow us to do 
this. And then the city and the private sector can really work 
in advance to get contracts in place to be able to turn that on 
quickly.
    And by the way, the voluntary agencies also are a partner 
with us on this. We are putting together a consortium of all 
the homebuilding voluntary agencies that will work in 
cooperation with the city, and we are going to try to do about 
1,000 units even before the CDBG funds become available, all 
using philanthropic dollars.
    Senator Landrieu. And I just think it is very important for 
the public to understand that there are no cheap solutions to 
this dilemma, but there are better solutions than others.
    FEMA right now, and I don't know what the number is, but we 
will find out and put it into the record, is spending tens of 
thousands of dollars maintaining families in hotel rooms at a 
cost of--what?--$150 a night? $200 a night? $300 a night?
    Mr. Gair. This is New York City.
    Senator Landrieu. I am not in Louisiana. I am not in Kansas 
anymore.
    Senator Landrieu. You know, $300 a night when you could add 
that money up and put it to the rebuilding of their home in a 
smarter way.
    Now, the taxpayer is going to pay the money anyway under 
the law. Now we could change the law and say people should just 
be homeless until their homes are built; I don't think that is 
going to happen. Or they should spend their time in a homeless 
shelter; I don't think that is going to happen.
    So we back up and look at it and say, why would we spend 
$50,000 for a hotel bill for this family? What if you took that 
$50,000 and put it with the insurance they had, the equity that 
they themselves, sweat equity that they can put in, much like 
maybe in the Habitat for Humanity model, and some other things. 
You could get them back in a better house, a stronger house, 
for less money.
    Thank you, Brad. But I mean, I just can't say it enough. 
Some people might not listen to me. Maybe they will listen to 
you.
    I sound like a broken record, but that is exactly what we 
are trying to do. So, thank you, and let's keep pushing.
    Mayor, let me go back to your description, because I saw 
this with my own eyes, and I was so impressed with this when I 
saw it. And you know, your barrier islands are very different 
than, of course, the barrier islands in the gulf coast, but 
they serve the same purpose. They blunt the forces of the wind 
and water, protect what is behind them.
    Your beaches are little bit different than ours, but the 
same thing, same physics work.
    You said that, 13 years ago, you had a project that was 
authorized, but yet not completed. Only a fraction of the 
engineered levee was completed, and you testified that on the 
other side of that levee, the citizens were protected, homes 
were not destroyed. But yet, beyond that engineered levee, 
there was great destruction.

                            BARRIER ISLANDS

    Can you tell us, if you know, what the cost of that project 
would have been 13 years ago? And have you been able yet to 
calculate the savings to the public had that project actually 
been done, because the damage would have been virtually, at 
least in your community, completely mitigated? Or much of it 
would have been mitigated?
    Mr. Mancini. Yes, Senator. Originally, the project was 
authorized at $89 million.
    Senator Landrieu. $89 million?
    Mr. Mancini. $89 million to do 17 miles. We are not funding 
with drips and drabs. We have had three separate projects, 
first, Surf City, 1 mile; Harvey Cedars was 1.8 miles; and a 
section in my town, about 1 mile.
    The projection to complete the remainder of the island plus 
to refurbish the existing is about $160 million now. We have 
requested those funds through all the channels.
    Behind the jobs that were completed, I am going to say for 
every $10 spent, it was $100 saved. It was an incredible cost 
to improve vs. cost to save. It was an incredible amount of 
money.
    And that doesn't even take into consideration the 
properties of the communities on the other side of the bay 
that, on the unengineered dune systems that were breached, that 
surge went over and took out Beach Haven, and West Mystic 
Islands, and Tuckerton Beach.
    So we are not looking even looking at that savings.
    Senator Landrieu. Okay, because I want to make sure that we 
get this in the record. And I am going to say what I can 
repeat. Thirteen years ago, there was a project for $89 million 
that was authorized. Had it been funded, you would have saved 
yourself at least a portion or maybe all of the $160 million 
you have now requested to finish it, because it would have been 
done 13 years ago.
    In addition, you have millions of dollars, that we would 
like your staff to get into the record of this subcommittee, of 
damage that was done. And it is going to be 10 times the $160 
million, or maybe more, that was ruined because the $89 million 
wasn't there initially when it should have been.
    This brings me to my other really tough point that I am 
trying to bring home to the Congress. The Federal Government 
has $1.6 billion for the entire country for new construction 
for the Army Corps of Engineers. I have said it before, and I 
am going to say it again for the record, I could spend $1.6 
billion in Louisiana alone on actual Army Corps of Engineers 
projects that must be done to mitigate against storms and 
disaster, to dredge the ports that are necessary to support the 
economic activity of the whole Nation, not just the 4.5 million 
people.
    I think I could spend $1.6 billion in Texas next door, 
which I am very familiar with.
    So you can see what a deficit we have here in Army Corps of 
Engineers funding, because with that $89 million that could 
have been funded, it would have saved hundreds of millions of 
dollars of damage, heartbreak, loss of income. And some of it 
is hard to calculate, because some people will just not come 
back, or reopen their businesses. So the loss of future 
earnings, the loss of ability for a business to grow; they just 
shut their doors and left. We don't even really calculate that 
in our calculations of loss.
    Now, there is a solution to this. I am not sure what it is. 
But there must be a solution, because we are just playing now 
devastating catch up.
    And we have a $40 billion backlog--$40 billion--of which 
your project was one of those backlogs. And this is what 
happens to those backlogged communities. You get devastated.
    And a storm is going to come, or a river is going to 
overflow, or a levee is going to break, because it wasn't 
repaired correctly. And the taxpayers will pay on the backend 
out of their noses.
    So we have a lot of deficits in Washington to worry about. 
One of them is this infrastructure deficit, particularly as it 
comes to the Army Corps of Engineers.
    Let me ask, if I could, Scott, to you, try to describe in a 
little bit more detail your community. You said you had a $10 
million deficit coming in. What is the budget of your 
community? And how did the impact to your tax base, how is it 
affecting your ability to operate, if it is at all, your 
police, your fire, your schools, your library? Try to give a 
little bit of context to that.
    And do you have the money that you need to operate? And if 
you do, where did you borrow it from, or where did you get it 
from?
    Mr. Mandel. Thank you, Madam Chairman.

                         INFRASTRUCTURE DEFICIT

    The budget is approximately $82 million. Unfortunately, 
when we did take office, this deficit was something that 
preexisted that we found out about after the fact. The ability 
to go forward at that point was mostly based on our ability to 
bond and to restructure the best we could, under whatever 
limitations we had.
    Unfortunately, due to the storm, Superstorm Sandy 
compounded now the burden that will be placed on our tax base. 
Basically put, our residents are still reeling from the 
deficit, and now to have to share in additional costs by 
contributions to FEMA would be devastating.
    We managed to get by. We are very conservative in our 
financing. We have streamlined our Government to make sure that 
we meet the needs and are as cost-effective as possible. But 
going forward, that will only cover so much, especially----
    Senator Landrieu. Did you lay off people? Or did you push 
back maintenance? How did you streamline your budgets to absorb 
that?
    Mr. Mandel. We downsized. We also, unfortunately, during 
the turnover of the administration, some staff were let go. 
Other staff were hired back at lower salaries. The city council 
itself took a reduction in pay. We negotiated with our unions. 
Any way possible to reduce this burden, we have explored.
    We have reached out to our local legislators, and we have 
even at times attempted to pass--to allow us to finance our 
debt in various different ways.
    Again, that now compounded with the extra cost from the 
storm is insurmountable for our residents.
    In my materials that I submitted, we have an itemization of 
our financial needs going forward. Just being practical in 
rebuilding, but not rebuilding for the sake of rebuilding, but 
rebuilding to be safer and stronger, and under those figures, 
we are looking at the upwards of $291 million.
    It is truly a concern, not only at the government level but 
for our residents.
    Senator Landrieu. So your annual budget is $82 million, and 
you have $291 million in damage.
    Mr. Mandel. Approximately, yes, due to the repairs, yes.
    It is something that, again, unanticipated, but this 
impacts not only on our residents, but also on our economic 
development. This is something that takes into account 
aspirations for business grants, for enticing businesses to 
come back to Long Beach, those that have closed up shop.
    There is no reason for them to stay. Again, as a seasonal 
community impacted by this type of storm, we are wondering if 
there will be a summer in Long Beach, wondering if there will 
be a boardwalk for residents to come to and spend their days 
and spend their funds.
    And again, these numbers we believe are on the conservative 
side, but it is a reality that we have to deal with.
    Senator Landrieu. Okay, let me ask one more question, and I 
am sorry our time is going to cause us to have to close. But 
for each of you, particularly, Mayor, and, President, what are 
you hearing from your small-business owners?
    Now, the SBA, they are not here to testify, but I would 
still like to hear, are they being responsive? Are your 
communities getting the loans that they need? Are they not 
interested in loans; they are really interested in grants, 
because they already had a good bit of debt or their normal 
debt burden that most businesses will carry some?
    Can you give us a little flavor of what you are hearing? 
Because I was so impressed to see the density of the number of 
small businesses that were devastated and destroyed, from 
restaurants to bars to souvenir shops, et cetera, et cetera, et 
cetera, which we are familiar with in the gulf coast, but we 
don't nearly have the density that you have for such a long 
stretch. We will have communities rebuilding, and then you will 
go for a while without many businesses but just homes.
    When I was going through your town, Mayor, I was just 
struck by a mile after mile after mile of small business after 
small business after small business. What are you hearing from 
them? Are they getting help from their local banks? Are they 
getting help from their credit unions? Are they getting help 
from the SBA or from the State?

                              SBA RESPONSE

    Mr. Mancini. Senator, the SBA, local businesses have been 
applying. About 50 percent of them are turned down. The 
interest rates at the SBA are higher than the local banks, and 
the paperwork is about 3-to-1 greater.
    On Long Beach Island, we are very blessed that we have a 
10,000-person population in the wintertime. It would go up to 
120,000 in the summertime.
    Our local businesspeople, we took a poll, brought them in, 
95 percent of them are rebuilding.
    Senator Landrieu. Wonderful.
    Mr. Mancini. Ninety-five percent will be open by Memorial 
Day. We have a lot of local interaction, a lot of help from 
other businesses, a lot of fundraisers.
    Senator Landrieu. And the banks are stepping up to try to 
help?
    Mr. Mancini. Everybody is helping to get businesses open, 
because we realize that tourists will not come unless they are 
open. And it has been really a great community effort, and it 
has been wonderful.
    As far as the housing, temporary housing on our secondary 
market, a lot of our people that were displaced just moved into 
seasonal homes without cost. The community has been incredible 
in embracing the displaced. So Long Beach Island is a very 
special place. We are very lucky.
    Senator Landrieu. Mr. Mandel.
    Mr. Mandel. Thank you, Madam Chairman.
    The response from our local businesses have been that, 
although the SBA has been working with the community, the 
process itself is arduous. And for some, it is just 
overwhelming considering the other factors they are dealing 
with.
    I am quite certain more grants would be a more welcomed 
response. But in reality, any opportunity for these businesses 
to come back, grants would be preferred, but the path using the 
SBA, were it simplified, were it more accessible, I think would 
be well received by the local businesses.
    Senator Landrieu. Well, I am chair of the Small Business 
Committee as well, and I am going to commit right now to have a 
hearing in a short period of time. I would like to work with 
you all on this issue, because I am not going to give up.
    It is not where it needs to be. We have worked and worked 
for 8 years. We have pushed the SBA. I will continue to push 
them, because this is just not fair.
    I don't expect grants to be given out willy-nilly, but a 
$10,000 grant here, a $20,000 grant there, would be a good 
investment of taxpayer money, particularly for businesses that 
have staying power and will generate that rebuilding 
opportunity in these communities.
    So they have to be limited and strategic, but we saw some 
of them worked pretty well. And while we have reduced the 
time--we still have not done what we need to do with the SBA.
    So I am going to put them on notice today. They are going 
to be called on the carpet to get this done better.
    We have to have some way for small businesses to recover 
more quickly after a catastrophic disaster. And I am going to 
call New York and New Jersey, their economic development teams 
in, to see what they are doing to help some of the smaller 
communities. Some communities are wealthier than others, and 
they have resources where they can come back.
    But the poor communities, which need extra help, need to 
have special strategic abilities. They do have a lot to offer. 
And they are very, very important.
    Finally, I will say this, as a woman who grew up on the 
coast, the last thing I want to see in America is that the only 
people who can live within a few blocks of the beach are people 
who have net worth of $20 million or more.
    Our coastal communities are culturally significant to us. 
They are made up of all kinds of people and backgrounds, 
fishermen, people that live simply, as well as people who are 
very wealthy. And if we are not careful with the way we 
recover, you will lose the culture of these coastal 
communities. You will not have your crabbers; you will not have 
your shrimpers; you will not have your little mom-and-pop 
businesses. They will not be able to live.
    And there has to be a way for America to preserve these 
coastal communities in a smart, economic, cost-effective way, 
without burdening the taxpayers too much, because everyone 
enjoys the coast. And if some of us wouldn't live there, no one 
would enjoy them, because there would be no one to see when you 
showed up.
    Let me just see if--there are questions about the flood map 
and the V zones. Let me just ask this final question, because 
it is very important for the record, and I am going to probably 
have to come back and do something on these V zones as well, 
because they are affecting us, particularly in the southwestern 
part of our State.
    Tell me a little bit more, Mayor, about the questions that 
you all have about the flood maps and the V zones. And what 
would you like to see our subcommittee focused on to try to 
help you get the information that you need, so that you can 
respond, your engineers can respond appropriately to this 
information you have been given?

                           ENGINEERED LEVEES

    Mr. Mancini. Senator, when we questioned the FEMA 
individual who was the head of that that showed up at the State 
Deputy Commissioner's meeting, we asked them if they take into 
consideration our engineered dunes. They didn't even know about 
them.
    So this is as of July 2012. Hopefully, we will have the 
dunes in place within 12 months, and that will facilitate, and 
should facilitate, the elimination of 16,000 homes. In the 
meantime, they were not willing to suspend or review----
    Senator Landrieu. Well, the Congress can mandate them to do 
so. I will be very interested in doing that.
    Mr. Mancini. It is incredible. You are talking about 
rebuilding, and rebuilding to the proper elevations.
    The V zone rebuilds for these people means they have to 
move the properties off, their homes off, put the piling in, 
move them back on. You can't do that with the slab.
    So, with the height, with just the foundation, concrete, 
normal, we can facilitate that at a decent cost.
    Senator Landrieu. And you can also, for new building, we 
have a lot of slabs that were built that should not have been 
built, but they were. So you have your engineered levees, slabs 
can live safely behind them at times.
    But what you want to do, with your new construction, 
require the raising. I mean, that is what makes the most sense 
to everyone and is the most effective.
    And we are going through that right now. So we will make 
sure that we get that----
    Mr. Mancini. Just one follow-up to that is we asked them 
how did they get this information, because we never saw any 
boots on the ground. This map was done at 10,000 feet. No boots 
on the ground, Senator.
    Senator Landrieu. Okay.
    Mr. Mandel.
    Mr. Mandel. We echo the same concerns. Our major obstacle 
is elevation. A lot of our homes were originally bungalow homes 
in the different part of Long Beach. Basically, they cannot 
exist unless elevated, and the funds just aren't there for the 
average homeowner to literally elevate their entire life, 
especially after recovering from the storm, considering that 
their homes were washed away.
    It is insurmountable at this point. We need that open 
dialogue and communication. We need the process to move a 
little faster for us and also the security for our residents 
that the funds are available.
    Senator Landrieu. Okay, any final words, Mr. Gair?
    Mr. Gair. This topic is obviously a very, very important 
issue, and I will say that New York City, when the advisory 
base for elevation maps were coming out here, we have some 
resources and were able to work with FEMA, taking their data 
and doing some additional modeling and were able to actually 
cut back significantly on the V zones before the actual maps 
were released.
    So there is no question, and FEMA is the first to admit, 
that it is very simplified modeling to get some good 
information out as quickly as possible. But it leads to some 
very expensive challenges, if you have to accept those without 
some additional work being done.
    Senator Landrieu. Well, I will commit that we will be doing 
a meeting in Washington with your delegation through my 
subcommittee on this. And we will get back to you on that.
    I thank you all very much for your testimony.
    Thank you, and best of luck for your recovery.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will stay open for 1 week, and I encourage 
people to submit other testimony for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department and the City Council of Long 
Beach for response subsequent to the hearing:]
     Questions Submitted to the Federal Emergency Management Agency
            Questions Submitted by Senator Mary L. Landrieu
    Question. The Sandy Recovery Improvement Act--which was passed in 
January--gave the Federal Emergency Management Agency (FEMA) the 
authority to make awards based on estimates. I understand FEMA is 
planning on issuing guidance to applicants in mid-April. What steps has 
FEMA taken to inform applicants in the northeast about the new public 
assistance procedures, grants on the basis of estimates, project 
consolidation, and advancing hazard mitigation funds?
    Answer. FEMA continues to work hard to fully implement the 
requirements of the Sandy Recovery Improvement Act, which passed in 
January, and has established a team of senior leaders from across the 
Agency to lead the implementation efforts for the new authorities in 
the Stafford Act to make grants based on estimates. As a part of the 
effort to inform our State, tribal and local constituents, FEMA briefed 
the National Emergency Management Association; convened the Public 
Assistance Steering Committee, which includes State and local 
representation; and began meeting with leadership in open joint field 
offices (JFOs), which are responsible for the administration of the 
Public Assistance Program, to discuss the implications and applications 
of the Sandy legislation. As a result of those meetings, Public 
Assistance leaders within the JFOs are speaking with applicants 
concerning Sandy Recovery Improvement Act implementation and the 
potential impact it may have on current and future disaster operations. 
Finally, in July 2013, FEMA will host a FEMA-State Sandy legislative 
meeting with expected attendees from State, tribal and local government 
to discuss the Sandy legislation at length.
    Question. The Executive order directs the Department of Housing and 
Urban Development (HUD) to support the task force with administrative 
costs, subject to the availability of appropriations and also by using 
funds provided by the Disaster Relief Fund (DRF) by agreement with 
FEMA. How much funding will your agency spend on the task force in 
fiscal year 2013? Which account specifically is the funding coming 
from?
    Answer. FEMA established an interagency agreement with HUD to 
provide up to $8 million from the DRF in support of task force 
administrative costs. The agreement was effective December 2012.
    Question. How much, by State and by week, has FEMA obligated to the 
Temporary Sheltering Assistance program for Hurricane Sandy?
    Answer. The obligations to the Temporary Sheltering Assistance 
program for Hurricane Sandy are shown, by week, in the tables below.

 
------------------------------------------------------------------------
   NY DR-4085 Total TSA Payments:       NJ DR-4086 Total TSA Payments:
   $61,340,689 Weekly TSA Amounts       $35,478,204 Weekly TSA Amounts
------------------------------------------------------------------------
       Date              Amount             Date             Amount
------------------------------------------------------------------------
       11/06/2012          $7,535.99        11/06/2012         $6,359.87
       11/13/2012         490,073.31        11/13/2012        401,088.45
       11/20/2012       1,529,285.25        11/19/2012      1,448,949.97
       11/27/2012       3,990,048.86        11/27/2012      2,241,964.20
       12/04/2012       4,636,350.06        12/04/2012      2,908,427.15
       12/11/2012       4,767,834.52        12/11/2012      2,261,751.81
       12/18/2012       5,524,575.48        12/18/2012      3,258,686.34
       12/27/2013       4,784,401.46        12/27/2012      2,960,145.74
       01/02/2013       3,367,729.77        01/02/2013      2,484,028.96
       01/08/2013       4,281,813.64        01/08/2013      2,212,403.34
       01/15/2013       4,802,832.10        01/15/2013      3,363,285.96
       01/22/2013       3,298,401.26        01/22/2013      1,619,766.74
       01/29/2013       4,906,847.25        01/29/2013      1,950,178.05
       02/05/2013       2,676,929.93        02/05/2013      1,411,609.50
       02/12/2013       2,872,837.16        02/12/2013      1,330,432.34
       02/19/2013       2,564,090.98        02/19/2013      1,216,830.57
       02/25/2013       1,699,017.30        02/25/2013      1,084,649.80
       03/05/2013       2,184,856.34        03/05/2013      1,431,952.70
       03/12/2013       1,217,758.74        03/12/2013        801,625.57
       03/19/2013         809,397.85        03/19/2013        540,749.91
       03/26/2013         928,072.01        03/26/2013        543,317.27
------------------------------------------------------------------------

    Question. How much, by State, has FEMA obligated to the Sheltering 
and Temporary Essential Power Program?
    Answer. In New York, FEMA has obligated a total Federal share of 
$126,154,094 for the Sheltering and Temporary Essential Power (STEP) 
Program. The current estimate for STEP obligations in New Jersey is 
less than $750,000.
                                 ______
                                 
    Questions Submitted to the Hurricane Sandy Rebuilding Task Force
            Questions Submitted by Senator Mary L. Landrieu
    Question. President Obama signed the Executive order creating the 
Hurricane Sandy Rebuilding Task Force on December 7, 2012, and charged 
it with preparing a strategy by early August with specific outcomes, 
goals, and actions for all levels of government and the private sector 
to support rebuilding. The Executive order is clear that the strategy 
should include input from State, local and tribal officials, with 
mitigation in mind. How will you ensure mitigation measures are 
substantially leveraged and regionally coordinated?
    Answer. This is a key effort of the task force. Our approach is to 
work with all Federal agencies to ensure we understand the scope and 
detail of each type of mitigation and then work across the programs to 
see how we can create economies of scale and other types of leverage 
and efficiency.
    For example, while coastal protection may be funded by USACE, water 
and wastewater restoration projects along the coast are funded by FEMA 
Public Assistance or through the States using FEMA, EPA or HUD funds. 
The coordination of these efforts is key because design for the 
protection of critical infrastructure should be informed by the work 
done to protect the area in which it is located. States operate 
differently as do the local communities within them, so we have 
recognized that fact and designed our organization to address it.
    For regional coordination, we have taken a matrix approach. We have 
staff in Washington, DC, who are focused on specific types of issues 
such as housing and infrastructure and in our New York and New Jersey 
regional offices we have people focused on geography and needs of the 
State and local stakeholders. These staff work together to ensure that 
issues are looked at both broadly across the entire impacted zone as 
well as understand the local issues that may require a different 
approach in different areas. This approach allows us to share lessons 
learned across the States and communities.
    As we have seen with respect to previous disasters, CDBG-DR funding 
offers important flexibility and effectiveness in responding to 
disasters. Previous uses of CDBG disaster funding have included, for 
example the State of Indiana budgeted approximately $40 million in 
CDBG-DR funds to rebuild and mitigate damaged infrastructure following 
2008 flooding. As a result, water and wastewater facilities in the town 
of Hope were rebuilt safer and more resilient, and the facilities have 
continued operation without disruption despite subsequent severe 
storms.
    Additionally, throughout the Hurricane Sandy CDBG-DR notice, HUD 
incorporates guidance regarding mitigation:
  --First, the needs assessment must take into account the costs of 
        incorporating mitigation and resiliency measures to protect 
        against future hazards.
  --Second, in its action plan, the grantee must describe how it will 
        encourage mitigation of hazard risk and how repair, 
        rehabilitation, reconstruction, and new construction are 
        designed (where possible) to incorporate principles of 
        sustainability, including mitigating the impact of future 
        disasters.
  --As part of its action plan, the grantee must also identify how it 
        will address the mitigation needs of each impacted Public 
        Housing Authority (PHA) within its jurisdiction.
    Question. The Rebuilding Task Force is made up of 24 Departments 
and Agencies and charged with delivering a strategic plan to the 
President summarizing its work and outlining specific outcomes, goals, 
and actions related to Hurricane Sandy recovery. The task force is also 
directed to terminate 60 days after the completion of the strategic 
plan. Once the task force ends how will succession plans be implemented 
to make sure nothing falls through the cracks and tasks are completed 
in a timely way?
    Answer. At the end of the 180-day process the task force will issue 
a comprehensive, locally driven regional rebuilding strategy--one that 
will share best practices of rebuilding communities and reflect their 
visions for rebuilding.
    The strategy will focus on helping communities rebuild in a way 
that makes them more resilient and economically sustainable--and will 
address the common policy challenges communities across the region face 
as they rebuild.
    The strategy will also include an implementation plan, likely 
relying on FEMA's Recovery Support Functions structure to ensure 
continued cross-government coordination and collaboration as the plan 
is actually executed.
    Question. The Executive order directs HUD to support the task force 
with administrative costs, subject to the availability of 
appropriations and also by using funds provided by the Disaster Relief 
Fund by agreement with FEMA. How much funding will your agency spend on 
the task force in fiscal year 2013? Which account specifically is the 
funding coming from?
    Answer. The task force's overall budget is $7,968,000 and comes 
directly from the Disaster Relief Fund. To date, the task force has 
received $2,250,000 and has spent or obligated $1,600,000.
                                 ______
                                 
    Questions Submitted to the City Council of Long Beach, New York
            Questions Submitted by Senator Mary L. Landrieu
    Question. Please outline your Corps of Engineers projects: When 
were they authorized and how much was the estimate at that time?
    Answer. The project was authorized in April. The project was 
authorized after Hurricane Gloria, sometime in the late 1980s/early 
1990s. The funding for the project was appropriated in April.
    Question. How much of the project has been completed to date and 
how much did it cost?
    Answer. The project has not yet started.
    Question. What is the current estimate for the entire project now?
    Answer. The project is estimated to cost approximately $150 
million. This is the total cost for the entire project, which spans the 
entire 6 miles of the barrier island. The cost for the city section is 
approximately $75 million-$78 million.
    Question. How much damage (in dollars) was done in areas where the 
Corps project is authorized but not completed and how much in areas 
where the project is completed?
    Answer. The damage done to the beach in Long Beach is estimated at 
$30 million. This is the estimated cost to replace the dunes in the 
east and west ends, and to replace the sand that was lost as a result 
of the storm. This does not include the boardwalk ($41.2 million) or 
the replacement of the structures that sat on the beach--bathrooms, 
lifeguard HQ, etc. ($4 million).
    Question. What is your community's annual budget?
    Answer. Our annual budget is approximately $85 million.
    Question. was your deficit before Hurricane Sandy?
    Answer. We inherited an annual operating fiscal deficit from the 
prior administration of approximately $10 million.
    Question. What is the total estimated costs for Hurricane Sandy 
response and recovery?
    Answer. We estimate that the total costs will be approximately $200 
million.

                         CONCLUSION OF HEARING

    Senator Landrieu. Let me call the meeting adjourned.
    [Whereupon, at 12:14 p.m., Friday, March 1, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
